<html>
<title> - ESTABLISH BLEEDING KANSAS NATIONAL HERITAGE AREA; CHAMPLAIN VALLEY NATIONAL HERITAGE IN VERMONT AND NEW YORK; COLONIAL HERITAGE AREA IN MISSOURI; AND UPPER HOUSATONIC VALLEY NATIONAL HERITAGE AREA IN CONNECTICUT AND MASSACHUSETTS</title>
<body><pre>[Senate Hearing 109-28]
[From the U.S. Government Printing Office]



                                                         S. Hrg. 109-28

  ESTABLISH BLEEDING KANSAS NATIONAL HERITAGE AREA; CHAMPLAIN VALLEY 
 NATIONAL HERITAGE IN VERMONT AND NEW YORK; COLONIAL HERITAGE AREA IN 
    MISSOURI; AND UPPER HOUSATONIC VALLEY NATIONAL HERITAGE AREA IN 
                     CONNECTICUT AND MASSACHUSETTS

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                                   on
                                     

                           S. 175                                S. 322

                           S. 323                                S. 429


                                     

                               __________

                             MARCH 15, 2005


                       Printed for the use of the
               Committee on Energy and Natural Resources


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-332                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               JON S. CORZINE, New Jersey
GORDON SMITH, Oregon                 KEN SALAZAR, Colorado
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                     Subcommittee on National Parks

                    CRAIG THOMAS, Wyoming, Chairman
               LAMAR ALEXANDER, Tennessee, Vice Chairman

GEORGE ALLEN, Virginia               DANIEL K. AKAKA, Hawaii
RICHARD M. BURR, North Carolina      RON WYDEN, Oregon
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
GORDON SMITH, Oregon                 JON S. CORZINE, New Jersey
                                     KEN SALAZAR, Colorado

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Thomas Lillie, Professional Staff Member
                David Brooks, Democratic Senior Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     8
Baker, James, Historic Site Administrator, Missouri Department of 
  Natural Resources, Ste. Genevieve, MO..........................    16
Billings, Judy, Senior Vice President, Lawrence Chamber of 
  Commerce, Lawrence Convention and Visitors Bureau, Lawrence, KS    18
Brownback, Hon. Sam, U.S. Senator from Kansas....................     3
Cosgrove, John W., Executive Director, Alliance of National 
  Heritage Areas, Scranton, PA...................................    27
Cousins, Ann, Field Services Representative, Preservation Trust 
  of Vermont, Burlington, VT.....................................    21
Dodd, Hon. Christopher J., U.S. Senator from Connecticut.........     4
Jones, Ronald D., Chairman, Upper Housatonic Valley National 
  Heritage Area, Inc., Salisbury, CT.............................    23
Kerry, Hon. John F., U.S. Senator from Massachusetts.............     5
Knight, J. Peyton, Executive Director, American Policy Center, 
  and Washington Representative for American Land Rights 
  Association, Warrenton, VA.....................................    30
Lieberman, Hon. Joseph I., U.S. Senator from Connecticut.........     6
Matthews, Janet Snyder, Associate Director for Cultural 
  Resources, National Park Service, Department of the Interior...     9
Roberts, Hon. Pat, U.S. Senator from Kansas......................     7
Salazar, Hon. Ken, U.S. Senator from Colorado....................     8
Talent, Hon. James M., U.S. Senator from Missouri................    15
Thomas, Hon. Craig, U.S. Senator from Wyoming....................     1

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    37

                              Appendix II

Additional material submitted for the record.....................    39

 
  ESTABLISH BLEEDING KANSAS NATIONAL HERITAGE AREA; CHAMPLAIN VALLEY 
 NATIONAL HERITAGE IN VERMONT AND NEW YORK; COLONIAL HERITAGE AREA IN 
    MISSOURI; AND UPPER HOUSATONIC VALLEY NATIONAL HERITAGE AREA IN 
                     CONNECTICUT AND MASSACHUSETTS

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                               U.S. Senate,
                    Subcommittee on National Parks,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:30 p.m. in 
room SD-366, Dirksen Senate Office Building, Hon. Craig Thomas 
presiding.

            OPENING STATEMENT OF HON. CRAIG THOMAS, 
                   U.S. SENATOR FROM WYOMING

    Senator Thomas. I believe we'll get started. We have a 
little complication today, in that voting around here 
interferes with the rest of our lives, and, at 3 o'clock, we're 
going to have five votes in a row, so we're going to have to 
see if we can't wind up here by about 3:10, at the latest.
    So thank you very much. Welcome, Janet Matthews, from the 
Department of the Interior, and our other witnesses to today's 
hearing.
    The purpose, of course, is to receive testimony on four 
Heritage Area bills that are now in the Senate: S. 175, to 
establish Bleeding Kansas and Enduring Struggle for Freedom 
National Heritage Area; S. 322, a bill to establish Champlain 
Valley National Heritage Partnership in the States of Vermont 
and New York; S. 323 authorizes the Secretary of the Interior 
to study the suitability and feasibility of designating the 
French Colonial Heritage, State of Missouri; and S. 429, a bill 
to establish the Upper Housatonic Valley National Heritage 
Area.
    So, as you all know, the Heritage Area--first, the Heritage 
Area was created in 1986. Since that time, we've seen rather 
large growth in the numbers and the density of Heritage Areas. 
Currently, 27 National Heritage Areas exist, and legislation 
has been introduced for another 16 in this Congress. The State 
of Pennsylvania has six. The entire State of Tennessee is a 
National Heritage Area. The potential exists for hundreds to be 
designated, and each area expects to receive a million dollars 
a year for 10 or 15 years.
    And I'm a proponent of trying to establish a structured 
program with criteria and a process for the study and 
designation of future heritage areas, with respect to having a 
national concept, as opposed to having done it in a State, or 
so on. We have a bill, S. 243, and a House companion, by Mr. 
Hefley, establishing such a program. I encourage my colleagues 
to pass this policy, this Congress, so that then we can make 
application for how it applies to the bill as proposals come 
in. I'm not opposed, obviously, to the concept of National 
Heritage Areas, but I think it's important that we define the 
program within the context of the Park Service's mission, and 
develop a structured process so we can move forward with that.
    So, I want to thank my colleagues for being here today. 
Senator from Hawaii, we have 35 minutes to do this job, so 
we're going to ask the witnesses to take 5 minutes to put the 
rest of their statement in the record, printed, and if we can 
hold our questions to a minimum, why, perhaps we can get 
finished.
    Senator Akaka.
    [The prepared statements of Senators Thomas, Brownback, 
Dodd, Kerry, Lieberman, and Roberts follow:]
   Prepared Statement of Hon. Craig Thomas, U.S. Senator From Wyoming
    Good afternoon. I want to welcome Janet Matthews from the 
Department of the Interior and our other witnesses to today's 
Subcommittee Hearing.
    Our purpose for this hearing is to receive testimony on four 
heritage area bills introduced into the Senate.
    S. 175, a bill to establish the Bleeding Kansas and Enduring 
Struggle for Freedom National Heritage Area, and for other purposes;
    S. 322, a bill to establish the Champlain Valley National Heritage 
Partnership in the States of Vermont and New York, and for other 
purposes;
    S. 323, a bill to authorize the Secretary of the Interior to study 
the suitability and feasibility of designating the French Colonial 
Heritage Area in the State of Missouri as a unit of the National Park 
System, and for other purposes; and
    S. 429, a bill to establish the Upper Housatonic (``hue-sah-
tonic'') Valley National Heritage Area in the State of Connecticut and 
the Commonwealth of Massachusetts, and for other purposes.
    The first National Heritage Area was created in 1986. Since that 
time we have seen a tremendous growth in the number and diversity of 
heritage areas. Currently, 27 national heritage areas exist and 
legislation has been introduced for another 16 in this congress. The 
state of Pennsylvania has six and the entire state of Tennessee is a 
National Heritage Area. The potential exists for hundreds more to be 
designated and each area expects to receive a million dollars a year.
    I have been a proponent of establishing a structured program with 
criteria and a process for study and designation of future National 
Heritage Areas. My bill, S. 243, and the House companion, H.R. 760, 
introduced by Mr. Hefley establishes such a program. I encourage my 
colleagues to pass the overarching National Heritage Area policy bill 
this congress. I am prepared to work with them to make the necessary 
improvements and get it sent to the President.
    I am not opposed to the concept of National Heritage Areas, but it 
is important that we define the program within the context of the 
National Park Service mission and develop a structured process for 
review and establishment of new areas. Without such a process, National 
Heritage Areas will begin to impact other National Park Service 
Programs and diminish future funding opportunities for heritage areas 
themselves. At its current rate of growth up to $54 million per year of 
the National Park Service budget could go to funding Heritage Areas by 
the year 2016. We need to ensure that the National Park Service is 
given the necessary legislative structure, such as S. 243, to 
effectively implement the program.
    Let me thank my colleagues from the Senate who are here to speak on 
behalf of their bills and all of the witnesses for coming today. I look 
forward to hearing the testimony being presented.
                                 ______
                                 
  Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas, 
                               on S. 175

    Chairman Thomas and Members of the Committee, thank you for the 
opportunity to speak on behalf of a bill that I authored with Senator 
Pat Roberts, Representative Jim Ryun and the Kansas Congressional 
Delegation. It is with great pleasure that I speak to you not only on 
behalf this bill, but on behalf of the State of Kansas in supporting 
the establishment of the Bleeding Kansas and the Enduring Struggle for 
Freedom National Heritage Area Act, which will serve to nationally 
commemorate and educate Kansans and our nation on the significant 
contributions and sacrifices Kansas has made to our nation.
    The great story of Kansas can be summed up in the state motto, ``Ad 
Astra per Aspera,'' to the stars through difficulties. Though only a 
short phrase comprised of four words, the meaning and passion behind 
the Kansas motto are as profound as they are descriptive of a state 
that though smaller than some, was a catalyst for racial equality and 
cultural change in this nation from the Civil War, to Reconstruction to 
the Brown v. Board of Education Supreme Court decision to the present.
    From inception, Kansas was born in controversy--a controversy that 
helped to shape a nation and end the egregious practice of chattel 
slavery that brutalized an entire race of individuals in this country. 
I cannot think of a nobler or more important contribution provided to 
our nation--though arguably it was one of the most turbulent and 
darkest hours of, our history. Without this struggle however, the 
battle to end persecution and transform our country into a symbol of 
freedom and democracy throughout the world would not, have been 
realized.
    Last year, 2004, marked the sesquicentennial of the signing of the 
Kansas-Nebraska bill which repealed the Missouri compromise, allowed 
states to enter into the Union with or without slavery. This piece of 
legislation, which was passed in May 1854, set the stage for what is 
now referred to as, ``Bleeding Kansas.'' During this time, our state, 
then a territory, was thrown into chaos with Kansans fighting 
passionately to ensure that the territory would inter the Union as a 
free state and not condone or legalize slavery in any capacity. At the 
end of a very difficult and bloody struggle, Kansas entered the Union 
as a free state and helped to spark the issue of slavery on a national 
level. However, Kansas' contributions to the realization of freedom in 
this nation did not stop with the Kansas-Nebraska Act.
    Keeping true to our motto, to the stars through difficulties, 
Kansas opened up her arms to a newly freed people after the Civil War 
ended. Many African-Americans looked to Kansas for solace and 
prosperity when the South was still an uncertain place. Perhaps one of 
the best examples of Ad Astra per Aspera was the founding of Nicodemus, 
a town in Kansas by African-Americans coming to our state to begin 
their life of freedom and prosperity.
    Founded in 1877, Nicodemus, which was named after a. legendary 
slave who purchased his freedom, is the most recognized historically 
black town in Kansas. Nicodemus was established by a group of colonists 
from Lexington, Kentucky and grew to a population of 600 by 1879. 
However, Nicodemus is not the only Kansas contribution that shaped a 
more tolerant nation. Kansas was also one of the first states to house 
an African-American military regiment in the 1800s, the Buffalo 
Soldiers.
    The Buffalo Soldiers were, and still are, considered one of the 
most distinguished and revered African-American military regiments in 
our nation's history. One of those regiments, the 10th Cavalry, was 
stationed at Fort Leavenworth, KS. In July 1866, Congress passed 
legislation establishing two cavalry and four infantry regiments that 
were to be solely comprised of African-Americans. The mounted regiments 
were the 9th and 10th Cavalries, soon nicknamed ``Buffalo Soldiers'' by 
the Cheyenne and Comanche tribes. Until the early 1890s, the Buffalo 
Soldiers constituted 20 percent of all cavalry forces on the American 
frontier. Their invaluable service on the western frontier still 
remains one of the most exemplary services preformed by a regiment in 
the U.S. Army.
    Finally, perhaps one of the most influential Supreme Court cases 
heard was sparked by a citizen of Topeka, KS, Oliver Brown. Though 
there were previous cases that challenged the legality of the separate 
but equal doctrine, it was not until the now famous case, Brown v. 
Topeka Board of Education, caught fire and changed the course of 
America's history and the way in which we view equality in the eyes of 
the law. When the Supreme Court ruled in 1954 that school segregation 
laws were unconstitutional, the Court demolished the legal foundation 
on which racial segregation stood. The Court's opinion, written and 
delivered by Chief Justice Earl Warren, also served as a stirring moral 
indictment of racial segregation, and an eloquent challenge to America 
to cast off its prejudices and extend its promises of life, liberty, 
and the pursuit of happiness to all citizens, regardless of race or 
color.
    Indeed, Kansas has a very special place in our nation's story and 
this story should be told and should be shared with the nation. That is 
why I am proud to support and help guide the Bleeding Kansas National 
Heritage Area through Congress and I thank this committee for hearing 
this bill today.
    Already we have seen wonderful benefits in our state with the 
creation of this initiative. Through the great work of the Territorial 
Kansas Heritage Alliance and the chair of their planning committee, 
Judy Billings, there is a renewed fervor surrounding the history of 
Kansas within our state. We are seeing more coordination and networking 
between our rural and urban communities, which not only strengthens the 
effort to create this National Heritage Area but also strengthens these 
cities as well.
    Since 1999, the Territorial Kansas Heritage Alliance, which is 
comprised of historians, tourism agencies as well as grass roots 
organizations, have worked hard to ensure that the guidelines set 
fourth by the National Park Service were reflected in every aspect of 
this process, including protections for private property owners. 
Additionally, since its founding, the Alliance has conducted numerous 
town hall meetings around the State, one of which I was pleased to 
host. Currently, the Alliance is drafting a brochure that will 
highlight the initiative and begin the process of promoting this 
project throughout the State. As you can see, this has been a very 
transparent and inclusive process--one that has encompassed 27 counties 
in our State. Furthermore, the Alliance not only worked to sustain the 
Bleeding Kansas Heritage Area initiative but they also worked 
tirelessly to assist in the celebration of the 150th anniversary of 
Territorial Kansas.
    These are just a few examples of why I am pleased to join with my 
colleague from Kansas, Senator Pat Roberts, and enthusiastically 
support this bill before this Committee today. Specifically, the 
Bleeding Kansas National Heritage Area Act will designate 24 counties 
in Kansas as the ``Bleeding Kansas and the Enduring Struggle for 
Freedom National Heritage Area.'' Each of these counties will be 
eligible to apply for the heritage area grants administered by the 
National Park Service.
    The Heritage Area will add to local economies within the State by 
increasing tourism and will encourage collaboration between interests 
of diverse units of government, businesses, tourism officials, private 
property owners, and nonprofit groups within the Heritage Area. 
Finally, the bill protects private property owners by requiring that 
they provide in writing consent to be included in any request before 
they are eligible to receive federal funds from the heritage area. The 
bill also authorizes $10,000,000.00 over a 10 year period to carry out 
this act and states that not more than $1,000,000.00 may be 
appropriated to the heritage area for any fiscal year.
    Indeed, Kansas has much to be proud of in our history and it is 
vital that this history be shared on a national level. By establishing 
the Bleeding Kansas and the Enduring Struggle for Freedom National 
Heritage Area, we will ensure that this magnificent legacy lives on and 
serves as a stirring reminder of the sacrifices and triumphs that 
created this nation--a nation united in freedom for all people.
    I again thank you for the opportunity to speak on behalf of this 
bill and look forward to working with you in order to move this bill 
through the Senate.
                                 ______
                                 
     Prepared Statement of Hon. Christopher J. Dodd, U.S. Senator 
                      From Connecticut, on S. 429

    Chairman Thomas, Vice Chairman Alexander, Ranking Member Akaka and 
members of the Subcommittee on National Parks, I welcome the 
opportunity to offer my support of S. 429, the Upper Housatonic Valley 
National Heritage Area Act. I was pleased to join with my friend and 
colleague, Senator Lieberman, who introduced this bill last month. 
Senators Kerry and Kennedy have cosponsored this legislation and 
Representatives Nancy Johnson and John Olver have introduced companion 
legislation in the House.
    As you may know, Senator Lieberman and I introduced legislation 
back in 2000 to authorize a feasibility study and at a May, 2000 
hearing, the National Park Service, Department of Interior, gave its 
stamp of approval to that legislation. In 2003, the National Park 
Service concluded that the upper Housatonic Valley met all criteria for 
establishing a national heritage area. We introduced legislation to 
designate the upper Housatonic Valley National Heritage Area last 
Congress, but it was not enacted before Congress adjourned.
    The Upper Housatonic area is world-renowned for its cultural 
contributions. It is home to such literary notables as Edith Wharton, 
Nathaniel Hawthorne, Herman Melville, and the Tanglewood Performing 
Arts Center. The 29 towns in Connecticut and Massachusetts located in 
the Upper Housatonic Valley are home to numerous sites on the National 
Register of Historic Places and National Historic and Natural 
Landmarks. The churches and meeting houses provide a window into New 
England's small-town past, the small family farms still operate and 
lakes and rivers provide recreational possibilities.
    The people of the Upper Housatonic Valley also made significant 
contributions in the industrial age. Cannons and other supplies were 
made here for General Washington's army. In the late 19th century, the 
finest railroad car wheels were produced here. More than 40 blast 
furnaces dotted the landscape until the 1920's when westward expansion 
led to the decline of the iron industry there.
    Heritage Corridors have been a successful public-private 
partnership and they encourage grassroots efforts to preserve historic 
and environmental treasures while promoting economic development.
    The upper Housatonic Valley has a distinctive history and culture 
and an abundance of local support for its designation as a Heritage 
Area. I would like to welcome Ronald Jones, the chairman of the Upper 
Housatonic Valley National Heritage area, to today's hearing. He has 
done extraordinary work over many years and we would not be here today 
without his dedication and commitment.
    Mr. Chairman, I thank you for moving expeditiously with a hearing 
on S. 429. I am confident of the merits of this legislation and I hope 
that members of the Committee will support it here and on the Senate 
floor. I know that you have many challenges ahead this year and I thank 
you for your consideration of the Upper Housatonic Valley National 
Heritage Area Act.
                                 ______
                                 
        Prepared Statement of Hon. John F. Kerry, U.S. Senator 
                     From Massachusetts, on S. 429

    Thank you, Chairman Thomas and Ranking Member Akaka, for this 
opportunity to testify before the National Parks Subcommittee. I am 
here today in support of S. 429, a bill to establish the Upper 
Housatonic Valley National Heritage Area in Connecticut and my home 
state, Massachusetts.
    The Upper Housatonic Valley runs along the western border of 
Massachusetts and Connecticut. It is bounded to the east by the 
commerce and development of the Connecticut River and to the west by 
the Hudson River. It is area of 950 square miles and some 29 
communities.
    Thanks to the support of this Committee, we passed legislation 5 
years ago asking the National Park Service to study whether or not the 
Valley warranted designation as a National Heritage Area. It examined 
several criteria to evaluate the area's significance, suitability and 
feasibility for the heritage area designation.
    The Park Service concluded that the Valley contains ``nationally 
important resources and represents important national themes.'' It said 
the Valley is a ``singular geographical and cultural region that has 
made significant national contributions through its literary, artistic, 
musical, and architectural achievements, its iron, paper, and 
electrical equipment industries, and its scenic beautification and 
environmental conservation efforts.''
    The Park Service highlighted four themes in the Valley that 
exemplify our national heritage. They are culture, the land itself, 
industry and our Revolutionary War and democratic government. And it 
found that no other national heritage area in the nation interprets 
this unique set of themes.
    In other words: No place in America tells quite the same story 
about America, and it is a story well-worth telling.
    The Committee has the Park Service report, and I know the Members 
are very busy this week with the Budget on the Senate floor, so I will 
not recite each and every reason why I hope the Congress acts to create 
the Upper Housatonic Valley National Heritage Area.
    I will simply say that it is a very special place and highlight 
some of its unique characteristics. It has been home to artists, 
educators and thinkers. People like Nathaniel Hawthorne, Herman 
Melville, Edith Wharton, W.E.B. DuBois and Norman Rockwell. Great music 
and theater can be heard and seen at Tanglewood, Music Mountain and the 
Shakespeare & Company.
    For decades, the people of the Valley have treasured its beautiful 
landscape of a meandering river, woods, small farms and rolling hills. 
Through cooperation and a conservation ethic they have sought to 
cleanup industrialized lands and reforest cut lands.
    For many years the valley was an engine in the iron, paper and 
electric industries. Iron production thrived from 1734 to 1923, drawing 
high grade Salisbury ore found along the Taconic range. Iron was first 
worked into tools used in farming and building. Cannons used by General 
Washington's Army were cast and drilled at a blast furnace in the 
Valley. Its iron fed the Springfield Arsenal and Whitney arms factory 
in New Haven. And later cast iron railroad wheels produced in the 
Valley were delivered to the nation and as far away as South America 
and Europe.
    And of course, the Valley has its own place in our nation and our 
democracy with its contribution to freedom's cause in the Revolutionary 
War, events like Shays' Rebellion and the writings of Nathaniel 
Hawthorne and others. This history is so unique it has been called the 
``Fourteenth Colony.'' Pieces of that history--in homes, buildings, and 
the land itself--remain preserved today in the Valley for visitors and 
residents to see and explore and to learn a unique chapter in American 
history.
    I also want the Committee to know that a wide range of groups--
historical societies, town governments, museums and historical sites, 
civic clubs and others--have expressed strong support for the 
establishment of a National Heritage Area. The support for this effort 
is broad and deep. I am pleased that we have made it this far in the 
process--and I want to give all the credit for that to the local 
leaders in the Valley who have worked hard for their cause.
    The Upper Housatonic Valley is a microcosm of the history of the 
nation, from the Native Americans and European settlement through its 
frontier days, the industrial revolution and the more recent growth in 
cultural, conservation and recreational activities.
    The National Heritage designation is a means of heightening 
appreciation of the region, preserving its natural and historic 
resources, improving the local economy and quality of life, controlling 
sprawl, and promoting the cleanup of the Housatonic River.
    I hope the Committee will support it.
    Thank you.
                                 ______
                                 
     Prepared Statement of Hon. Joseph I. Lieberman, U.S. Senator 
                      From Connecticut, on S. 429

    Thank you Mr. Chairman, for convening this hearing to discuss S. 
429 and the designation of the nationally significant Upper Housatonic 
Valley. This area embodies important pieces of our history and heritage 
as Americans and I hope you will see the value in designating it a 
National Heritage area.
    In 2000, congress established criteria clarifying the requirements 
for designation of a National Heritage Area. The area must encompass 
cultural, natural, and historical heritage of national significance. It 
must have broad public support, and a qualified entity to manage the 
area. The Upper Housatonic Valley has all of these. In fact, the Park 
Service cites the Upper Housatonic Valley as the best example of how to 
go about becoming a National Heritage Area. We hope today that we can 
move the Upper Housatonic Valley toward being an example of more than 
just the process, but of actually being a successful National Heritage 
Area.
    The Upper Housatonic Valley is a unique cultural and geographical 
region that encompasses 29 towns in the Housatonic River watershed, 
extending 60 miles from Lanesboro, Massachusetts to Kent, Connecticut. 
The valley has made significant national contributions through 
literary, artistic, musical, and architectural achievements. It was the 
backdrop for many important Revolutionary War era events, the cradle of 
the iron, paper, and electrical industries, and the home to key figures 
and events in the abolitionist and civil rights movements. It includes 
five National Historic Landmarks and four National Natural Landmarks. 
All of these are well documented in the Feasibility study that was 
completed in 2003.
    The Upper Housatonic Valley National Heritage Area Act would 
officially designate the region as part of the National Park Service 
system. It would also authorize funding for a variety of activities 
that conserve the significant natural, historical, cultural, and scenic 
resources, and that provide educational and recreational opportunities 
in the area. The Upper Housatonic Valley is part of our national 
identity. Making it a National Heritage Area will preserve and develop 
the experiences that connect us to our history and heritage as 
Americans.
    Upper Housatonic Valley National Heritage area, Inc., the non 
profit group that has been working on development of the area, has 
already done much to raise awareness of the beauty and historical value 
of this area. By coordinating with other groups they have put together 
an illustrated Iron Heritage Trail brochure, sponsored an October 
weekend of Heritage walks, organized a summer artistic/environmental 
painting event, and developed a graduate course for local school 
teachers on the culture, natural, and industrial heritage of the area.
    Through this broad, flexible and locally led initiative, the states 
of Connecticut and Massachusetts will be able to make real progress in 
protecting the river and its heritage and in guiding regional economic 
development. Making the Upper Housatonic Valley a heritage area will 
facilitate locally led and truly voluntary programs that will help 
protect the river for future generations and strengthen the economies 
of these small towns by developing regional tourism.
    The Upper Housatonic Valley is a precious part of America's 
heritage. I am sure you will see how much value the Upper Housatonic 
Valley has for maintaining our national heritage and sharing it with 
generations to come. I strongly support S. 429 and the designation of 
the Upper Housatonic Valley as a National Heritage Area.
                                 ______
                                 
   Prepared Statement of Hon. Pat Roberts, U.S. Senator From Kansas, 
                               on S. 175

    Mr. Chairman, I want to thank you for holding this hearing on what 
I believe is an important piece of legislation designating the Bleeding 
Kansas and the Enduring Struggle for Freedom National Heritage Area. 
This project has joined communities throughout eastern Kansas in an 
effort to document, preserve and celebrate Kansas' significant role in 
the political struggle that led to the Civil War and in other historic 
struggles for equality that took place in our state.
    Designated by Congress, National Heritage Areas are places where 
natural, cultural, historic and recreational resources combine to form 
a complete and distinct landscape. Our state, which has a proud 
heritage and compelling story, will benefit from this national 
designation that helps preserve and celebrate America's defining 
landscapes. By enhancing and developing historic sites throughout 
eastern Kansas, we will ensure that the traditions that evolved there 
are preserved.
    This bill, and this chapter in our nation's history, are of 
particular importance to me. My great grandfathers were Mr. A. G. 
Patrick and Mr. John Wesley Roberts. They were Kansas pioneers, 
frontier newspapermen and political rabble-rousers during the mid 
1800s.
    In 1856, John Wesley Roberts was an Ohio weekly newspaper editor. 
He championed the candidacy of John Fremont and the newly formed 
Republican Party, both through his newspaper and through a monthly 
magazine ``for family literary reading.''
    Standing with his son on the northern banks of the Ohio River, Mr. 
Roberts looked south into Kentucky where slaves worked the fields. It 
was a powerful and moving sight. ``Fired with interest in the struggle 
to make Kansas Territory a free state,'' as one historical account put 
it, Mr. Roberts shipped a flatbed press by rail and steamboat to Ft. 
Leavenworth, where it was taken by wagon to Oskaloosa. The Independent 
survives today as the state's second oldest newspaper, published 
through three generations of the Roberts family.
    Mr. Roberts knew fear and lived with violence. Guerillas and 
bushwhackers bent on exterminating free-state men threatened daily. 
When Quantrill sacked Lawrence in 1863, John Wesley and his family 
watched smoke darken the sky. When he and other riders arrived in 
Lawrence, it was a terrible sight that his son, my grandfather, never 
forgot.
    Though far from the main campaigns, this massacre made Bleeding 
Kansas a prominent symbol in the fight for the freedom of all people, 
and the state would become a battleground over the question of slavery.
    Meanwhile, Mr. Patrick, who arrived in Ft. Leavenworth, Kansas, in 
1856 by way of Indiana and Kentucky, was also caught up in the fight 
against slavery. Mr. Patrick was the son of American Revolutionary 
printers. When he caught the pro-slavery men of Leavenworth stuffing 
the ballot box, he sent a graphic account to newspapers in Indiana, 
which wired them back to newspapers in Leavenworth. He later joined 
Captain Wright's Stranger Creek Company of free-staters.
    Mr. Patrick and Mr. Roberts were united in their efforts, their 
idealism, and their vision of the future. Together, and with thousands 
of others like them, they built Kansas and molded their communities. 
They saw the frontier not as it was, but as the promised land it could 
be. It is this struggle, and those of generations to come, that deserve 
to be linked through designation of the Bleeding Kansas and the 
Struggle for Enduring Freedom National Heritage Area.
    I'd like to thank Judy Billings, who is with the Lawrence 
Convention and Visitor Bureau, who has worked diligently on this 
effort, along the Lawrence City Commission, the Douglas County 
Commission, and the Lawrence Chamber of Commerce.
    Again, I'd like to thank the committee for holding this hearing and 
I encourage the committee's swift passage of this important piece of 
legislation.

        STATEMENT OF HON. DANIEL K. AKAKA, U.S. SENATOR 
                          FROM HAWAII

    Senator Akaka. Thank you very much, Mr. Chairman. And, as 
you know, I'm delighted to have been working with you, and look 
forward to that.
    Although all four of the bills we are hearing this 
afternoon were included in an amendment last Congress as a part 
of a multi-title Heritage Area package which was passed by the 
Senate, only one, the French Colonial Heritage Study, in 
Missouri, has been the subject of a previous hearing in this 
committee. The other bills would designate Heritage Areas in 
the Champlain Valley in Vermont and New York, the Upper 
Housatonic Valley in Connecticut and Massachusetts, and the 
Bleeding Kansas and Enduring Struggle for Freedom Heritage Area 
in Kansas.
    Two dozen Heritage Areas have already been designated. At 
least that many have been proposed. While I believe the 
Heritage Area concept is a sound one, I think we need to 
carefully consider how to allow for future expansion of the 
Heritage Area program without overwhelming it with too many new 
designations.
    I think Senator Thomas' bill to establish criteria and a 
formal process for new designations is a good start. I'm 
interested whether other policy changes should be adopted to 
help ensure that if a new Heritage Area is designated, it has 
not only local support, but also strong organizational 
planning. For example, under the current process, after a new 
Heritage Area is established, there is a requirement for the 
local management entity to prepare a management plan for the 
area. Perhaps we should consider requiring the management plan 
to be prepared before the area is designated, instead of 
afterwards. Such a requirement might help differentiate areas 
with strong local support and planning from other areas, 
helping to reduce the number of new areas, without shutting 
down the program. While I am not committed to any specifics, I 
think it is important to have a wide variety of proposals to 
help ensure that the National Heritage Area Program remains a 
success.
    Mr. Chairman, I have a scheduling conflict today, and, 
unfortunately, I will be unable to stay here for the entire 
hearing. However, I look forward to working with you and the 
bills' sponsors to resolve any outstanding issues so that we 
can move these bills through the Committee process as early as 
possible.
    Thank you very much, Mr. Chairman.
    Senator Thomas. Thank you, sir.
    Senator Salazar, I just said that we're going to have to be 
through here at about 3:10. So I'm going to ask the witnesses 
to take 5 minutes. And if you have a comment, why, we'd be 
happy to hear from you.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. My comment is, I just think all these four 
bills are great bills, and I look forward, Mr. Chairman, to 
continuing to work with you and the rest of the members of the 
committee on these important issues.
    Senator Thomas. Okay, thank you very much.
    Ms. Matthews, we'll start with you.

  STATEMENT OF JANET SNYDER MATTHEWS, ASSOCIATE DIRECTOR FOR 
 CULTURAL RESOURCES, NATIONAL PARK SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Ms. Matthews. Thank you, Mr. Chairman and distinguished 
members of the subcommittee, for this--for your committee's 
strong leadership and support of the National Park Service 
programs and this opportunity to present the Department of the 
Interior views on S. 175, S. 322, S. 323, and S. 429.
    While feasibility studies have found the Champlain Valley, 
Upper Housatonic, and Bleeding Kansas areas appropriate for 
designation, we recommend that the committee defer action on 
all three bills until program legislation is enacted 
establishing guidelines and a process for designation of 
National Heritage Areas.
    Last year, the administration sent to Congress a 
legislative proposal to establish such guidelines and a process 
for designation. Absent enactment of such program legislation, 
we will look at a number of options, including consideration of 
potential offsets within the National Heritage Area's grants 
programs. Given current fiscal constraints, any discussion of 
particular National Heritage Areas should be consistent with 
the President's budget.
    The Department supports authorization of the fourth bill, 
S. 323; however, we request that any funding appropriated be 
first directed to studies previously authorized by the 
Congress.
    S. 175 would establish the Bleeding Kansas and the Enduring 
Struggle for Freedom National Heritage Area. The entry of 
Kansas into the Union as a free State was a legacy of 
struggles, triumphs, a catalyst for racial equality in our 
national. The core area includes, already, seven national 
historical landmarks, 32 national registered properties, three 
Kansas registered properties, seven properties on the National 
Underground Railroad Network to Freedom. The bill designates 
the Territorial Kansas Heritage Alliance as the management 
entity.
    S. 322 establishes the Champlain Valley National Heritage 
Partnership in the States of New York and Vermont. In the 1933 
Special Resource Study for Champlain Valley, the National Park 
Service concluded that the Champlain Valley clearly merits 
designation.
    S. 429 establishes the Upper Housatonic Valley National 
Heritage Area in the state of Connecticut and the Commonwealth 
of Massachusetts. S. 429 encompasses 29 communities, a singular 
geographic culture region characterized by significant national 
contributions in literature, art, music, architecture, and 
industrial achievements, including the National Historical 
Landmark Home of W.E.B. DuBois and Daniel Chester French, who 
produced the ``Seated Lincoln,'' who sits to our west within 
the Lincoln Memorial. The Appalachian Scenic National Trail 
follows, parallels, the length of the valley.
    S. 323 authorizes the Secretary to study the suitability 
and feasibility of designating the French Colonial Heritage 
Area in the State of Missouri as a unit of the National Park 
system. The Department supports, with a minor clarification 
provided in this testimony, but believes any funding requested 
should be directed toward completing previously congressionally 
authorized studies. The area contains some of our nation's only 
existing examples of the French Colonial period. The Department 
would like to work with the Committee to clarify some 
potentially confusing language relative to terminology.
    Mr. Chairman, this concludes my summary remarks, and I 
welcome your questions.
    Thank you so much.
    [The prepared statements of Ms. Matthews follows:]

  Prepared Statement of Janet Snyder Matthews, Associate Director for 
 Cultural Resources, National Park Service, Department of the Interior

                               ON S. 175

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on S. 175, a bill to authorize the Secretary of the 
Interior to establish the Bleeding Kansas and the Enduring Struggle for 
Freedom National Heritage Area.
    While a feasibility study has found the Bleeding Kansas area 
appropriate for designation, we recommend that the Committee defer 
action on S. 175 until program legislation is enacted that establishes 
guidelines and a process for designation of national heritage areas. 
Last year, the Administration sent to Congress a legislative proposal 
to establish such guidelines and a process for designation. This year, 
the Administration is working on a similar legislative proposal, and we 
look forward to continuing to work with Congress on this very important 
issue. Absent enactment of such program legislation establishing 
guidelines and a process for designation, we will look at a number of 
options, including consideration of potential offsets within the 
National Heritage Area Grants Program. Another reason we are 
recommending deferral is that given current fiscal constraints, any 
discussion of particular national heritage areas should be consistent 
with the President's budget. Funding in the FY 2006 President's Budget 
for the National Heritage Area program combined with funding from the 
First Lady's Preserve America program, the Save America's Treasures 
program, and historic preservation grants will go a long way toward 
supporting local efforts to preserve cultural, historical, natural, and 
recreational resources that reflect our nation's heritage.
    S. 175 would establish the Bleeding Kansas and the Enduring 
Struggle for Freedom National Heritage Area. The entry of Kansas into 
the Union as a ``free'' state was marked by a legacy of struggles, 
sacrifices, and triumphs that provided a catalyst for racial equality 
in our nation. The core area is defined by 23 counties in eastern 
Kansas. They are geographically assembled and thematically related as 
areas that provide unique frameworks for understanding the great and 
diverse character of the United States and the development of 
communities and their surrounding areas. There are seven National 
Historic Landmarks, 32 National Register properties, three Kansas 
Register properties, and seven properties listed on the National 
Underground Railroad Network to Freedom.
    The bill designates the Territorial Kansas Heritage Alliance, a 
non-profit organization established in the State of Kansas, as the 
management entity for the Heritage Area and outlines its duties. It 
also authorizes the development of a management plan and authorizes the 
use of Federal funds to develop and implement that plan. If the plan is 
not submitted within four years of enactment of this Act, the Heritage 
Area becomes ineligible for Federal funding until a plan is submitted 
to the Secretary. Additionally, the Secretary may, at the request of 
the management entity, provide technical assistance and enter into 
cooperative agreements with other public and private entities to carry 
out this purpose. The use of Federal funds may not be used to acquire 
real property or interests in real property.
    S. 175 would protect private property rights by requiring that 
owners provide, in writing, consent to be included in any request 
before they are eligible to receive Federal funds from the area. The 
private property owner in the Heritage Area would not be required to 
permit public access (including Federal, State, or local government 
access) to his or her property, or to participate in or be associated 
with the Heritage Area. The management entity would be an advocate for 
land management practices consistent with the purposes of the Heritage 
Area; however, S. 175 provides that nothing in the Act would impose any 
additional burden on any property owner.
    There is already a foundation of stewardship, appreciation, and 
high public interest in the project with a broad array of public 
support and opportunity for private, foundation, and community partners 
to be involved in heritage activities. S. 175 would allow all Federal 
partners and state and local groups to participate in the management of 
the major facilities and resources and allow the core areas to be 
eligible for grants to be administered by the National Park Service.
    ``Bleeding Kansas'' is the popular phrase describing the conflict 
over slavery that became nationally prominent in Kansas during the time 
of the American Civil War. The region was part of the Louisiana 
Purchase in 1803, and the site of a series of struggles for freedom. It 
was the first ``official'' Indian Country because woodland Indians 
removed from the east were forced to learn how to live in this semi-
desert landscape. Many of the non-Indian settlers were starting over by 
either fleeing slavery, taking a stand for or against slavery, 
homesteading or remaining there when they could go no further on any of 
the pioneer trails. Pro-slavery settlers from the south and anti-
slavery activists from the north came to the territory because it was 
located at the intersection of northern and southern expansion.
    The Missouri Compromise had excluded slavery from that part of the 
Louisiana Purchase. The original intent behind the Kansas-Nebraska Act 
of 1854 was to continue the balance of power between the free states 
and the slave states. By dividing the Nebraska Territory, it was 
assumed the northern part, Nebraska, would automatically be a free 
state, and Kansas, to the south and bordered by the slave state of 
Missouri, would automatically be a slave state. In Kansas, however, 
communities were burned and lives were taken as the slavery conflict 
continued escalating. Kansas had two capitals, one as a free state and 
one as a slave state. Additional challenges included the harsh 
conditions of the landscape and the wide mix of views and people who 
lived there, including abolitionists, proslavery advocates, former 
soldiers, religious colonies, pioneers, homesteaders, Native Americans, 
including displaced Indian nations, and African-Americans.
    A feasibility study was commissioned by the Territorial Kansas 
Heritage Alliance with the support of the Bleeding Kansas National 
Heritage Area Planning Committee, two grassroots organizations and 
completed on January 30, 2004. The study process included an outline of 
the chronology of events, a selection of unifying themes, and a 
comparison of potential management strategies. A review of the 
extensive literature on the events that occurred in the Kansas 
Territory also was conducted. In addition, the study incorporated the 
statewide tourism strategy, in recognition that establishment of a 
national heritage area could help rural economic development. Numerous 
public meetings were held and local participants were included in the 
study process. Based on information collected and analyzed in this 
study, the area meets all ten interim criteria that the National Park 
Service has developed for national heritage areas to be eligible for 
designation.
    For many people, Kansas symbolized the struggle for freedom, and 
the designation of a national heritage area would ensure the 
commemoration of this legacy. Designation also would provide increased 
opportunity for resource protection, education, interpretation, 
recreation, heritage celebration and community involvement in telling 
the inspirational story of Kansas. Local economies also would benefit 
by the increased heritage tourism as well as collaboration between 
diverse units of Government, businesses, tourism officials, private 
property owners, and nonprofit groups.
    The proposed area is historically unique based on the cultural 
themes and resources that are represented in its publicly and privately 
owned properties and landscapes. The events, landscapes, and cultural 
resources of the area are representative of major social movements that 
have had a significant impact on the formation of our national society.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.

                               ON S. 322

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 322, a bill to establish the Champlain Valley National 
Heritage Partnership in the States of New York and Vermont.
    While a feasibility study has found the Champlain Valley area 
appropriate for designation, we recommend that the Committee defer 
action on S. 322 until program legislation is enacted that establishes 
guidelines and a process for designation of national heritage areas. 
Last year, the Administration sent to Congress a legislative proposal 
to establish such guidelines and a process for designation. This year, 
the Administration is working on a similar legislative proposal, and we 
look forward to continuing to work with Congress on this very important 
issue. Absent enactment of such program legislation establishing 
guidelines and a process for designation, we will look at a number of 
options, including consideration of potential offsets within the 
National Heritage Area Grants Program.
    Another reason we are recommending deferral is that given current 
fiscal constraints, any discussion of particular national heritage 
areas should be consistent with the President's budget. Funding in the 
FY 2006 President's Budget for the National Heritage Area program 
combined with funding from the First Lady's Preserve America program, 
the Save America's Treasures program, and historic preservation grants 
will go a long way toward supporting local efforts to preserve 
cultural, historical, natural, and recreational resources that reflect 
our nation's heritage.
    S. 322 would establish the Champlain Valley National Heritage 
Partnership. This area includes communities containing thematically 
related resources across the States of New York and Vermont as defined 
by the linked navigable waterways and associated lands of the Champlain 
Valley. Specifically, this region encompasses the waterways of Lake 
Champlain, Lake George, the Champlain Canal, and portions of the upper 
Hudson River. The associated lands include portions of Grand Isle, 
Franklin, Chittenden, Addison, Rutland, and Bennington Counties in the 
State of Vermont, and portions of Clinton, Essex, Warren, Saratoga, and 
Washington Counties in the State of New York. The bill also would 
designate the Lake Champlain Basin Program as the management entity for 
the national heritage area.
    In 1609, Samuel de Champlain arrived on the shores of the lake that 
the Abenaki people called ``the waters between.'' As the name suggests, 
the waterways formed the territorial boundary between the Western 
Abenakis and the Iroquois. Confederacy. Champlain's initial encounter 
with Native Americans marked the beginning of European exploration, 
settlement, and conflicts that intensified over the next two centuries. 
These conflicts, waged on and along the Champlain waterways, included 
territorial battles among Native Americans, the Seven Years (or French 
and Indian) War, the Revolutionary War, and the War of 1812. The 
conclusion of the War of 1812 largely brought peace to the region and 
enabled the Champlain waterways to support peaceful pursuits and serve, 
as they had long before the wars, as a trading route between regions. 
On July 6, 1909, President William Howard Taft, speaking at Fort 
Ticonderoga, summed up the importance of the Champlain Valley saying: 
``This was the passageway, and here were fought the battles contended 
for two hundred years, and as we may now say, never to recur.''
    In the 1999 special resource study for Champlain Valley, the 
National Park Service concluded that ``the Champlain Valley clearly 
merits designation of a national, or arguably international, heritage 
corridor.'' The main reasons for the study's conclusions, based on 
interim national heritage area criteria, are outlined below. In 
addition, the public review period for the special resource study 
revealed public support for designation of a national heritage area. A 
clear majority of the written comments (72%) stated support for 
designation of a national heritage corridor, citing such advantages as 
greater support for preservation, improved coordination, better 
education, and economic gains resulting from heritage tourism.
    The area's key themes, ``Making of Nations'' and ``Corridor of 
Commerce'' are reflected by resources that are outstanding in both 
quantity and quality. The considerations that gave the Champlain Valley 
its exceptional strategic importance prevailed over an extended period. 
This created a layering of history, a profound accumulation of physical 
record in the great fortifications, such as Fort Ticonderoga, and in 
the exceptional collection of historic shipwrecks found in the cold 
depths of the waterways. The most notable of the thematically related 
resources possess exceptional integrity. One is a unit of the National 
Park System, Saratoga National Historical Park, which encompasses the 
lands where the two battles of Saratoga were fought and the British 
invasion was halted, an event considered to be the turning point of the 
American Revolution. Eight resources have been designated as National 
Historic Landmarks: Fort Crown Point, Fort St. Frederic, Fort 
Ticonderoga, the Land Tortoise, Plattsburgh Bay, Valcour Bay, Mount 
Independence, and Ticonderoga Steamboat. Numerous other important sites 
are found throughout the region and are opened to the public as state 
historic sites or as private museums.
    Due to their cold, fresh water, Lake Champlain and Lake George 
contain what is considered to be the finest collection of shipwrecks in 
North America. Lake George contains the remains of numerous bateaux, 
plus the French and Indian War radeau, Land Tortoise, described as the 
oldest intact warship in North America. Lake Champlain contains the 
remains of Benedict Arnold's last unexplored gunboat. The remnants of 
the British and American fleets from the 1814 Battle of Plattsburgh Bay 
rest near Whitehall, with other relics still lying in Plattsburgh Bay. 
Outstanding examples of shipwrecks representing the commercial era 
include: a horse-powered ferry believed to be the world's only 
surviving example; the steamboat Phoenix, considered to be the oldest 
surviving steamboat hull in the world; and the Water Witch, considered 
to be the oldest completely intact commercial vessel in America.
    The resources of the Champlain Valley are best managed through 
public/private partnerships due to the multiplicity of ownership and 
the fact that they are distributed over a large geographic area. 
Because of the importance of Lake Champlain and Lake George to the 
region, numerous federal, state, local, and nonprofit organizations are 
involved in various aspects of managing and planning for the natural, 
cultural, historic, recreational, and heritage tourism resources of the 
region, including the Lake Champlain Basin Program, the Lakes to Locks 
Passage initiative, and the Champlain Valley Heritage Network. Plus, 
there are over 60 nonprofit organizations and historical societies in 
the Champlain Valley active in the areas of historic preservation, 
education, planning, and stewardship of historic sites.
    The area reflects traditions, customs, beliefs, and folkways of a 
number of native and immigrant groups who peopled the region over the 
last several centuries. These groups included: the Abenaki and 
Iroquois, French lumberjacks and fur trappers, New England Yankee 
settlers, Quakers, French Canadian and Irish mill workers, Lithuanian 
and Ukrainian iron mine workers, and Swedish forge operators. The 
stories of the Native Americans and the many immigrant groups who came 
to this area for different reasons provide a glimpse into the process 
of early migration, settlement, and assimilation that characterizes the 
region.
    The public education and heritage tourism potential for the 
Champlain Valley is immense. Almost three-quarters of a million people 
live in the region, and millions more live within a day's drive. The 
region contains over 400 properties listed on the National Register of 
Historic Places, 18 of which are designated as National Historic 
Landmarks, as well as eight National Natural Landmarks. These important 
sites, along with the region's numerous museums offer an enormous 
potential to provide in-depth educational opportunities through 
thematic linkages. The education potential of this region is 
complemented by its proximity to the Hudson River Valley National 
Heritage Area and the Erie Canalway National Heritage Corridor, 
creating additional opportunities for linking educational programs. In 
addition, Lakes Champlain and George are recognized as preeminent 
recreational resources. The lakes and their shores offer a wide range 
of easily accessible recreational opportunities. On Lake Champlain 
alone, there are over 100 public boat-launching areas, nearly 50 
commercial marinas, and nearly 70 public beaches. Plus, there are over 
30 major parks, forests, and recreation areas within the region.
    This concludes my testimony on S. 322. I would be happy to answer 
any questions that you or any of the members of the subcommittee may 
have.

                               ON S. 323

    Mr. Chairman, thank you for the opportunity to present the 
Department's views on S. 323, a bill to authorize the Secretary of the 
Interior to study the suitability and feasibility of designating the 
French Colonial Heritage Area in the State of Missouri as a unit of the 
National Park System.
    While the Department is supportive of S. 323, with the minor 
clarification provided in this testimony, we believe that available 
funding should be first directed toward completing previously 
authorized studies. Currently, 31 studies are in progress, and we hope 
to complete and transmit 19 to Congress by the end of calendar year 
2005.
    S. 323 would authorize the Secretary to complete a study on the 
suitability and feasibility of designating the French Colonial Heritage 
Area as a unit of the National Park System. The French Colonial 
Heritage Area (Area) includes the Bequette-Ribault, St. Gemme-
Amoureaux, and Wilhauk homes, and the related and supporting historical 
assets in Ste. Genevieve County, Missouri. The Area contains some of 
the only existing examples of the French Colonial Period settlement, 
including two of the five poteaux-en-terre (post-in-the-ground) 
vertical log French buildings remaining in North America, dating from 
circa 1785, in addition to several other important historical 
resources. The Area is located within the expanded boundaries of Ste. 
Genevieve National Historic District (District), a National Historic 
Landmark. No current National Park System unit has comparable historic 
features providing the cultural backdrop required to adequately 
interpret the story of the early French in the New World.
    In April 1980, the Midwest Regional Office of the National Park 
Service completed a brief Reconnaissance Report of Ste. Genevieve 
Historic District. The Reconnaissance Report reviewed the District's 
cultural, natural, scenic, and recreational resources as well as 
ownership patterns and possible threats to the District. The 
Reconnaissance Report will provide valuable background information 
should this legislation be enacted authorizing a more in-depth study of 
suitability and feasibility, which includes a review of management 
alternatives.
    The Department would like to work with the Committee to clarify 
some potentially confusing language in the bill. While the bill 
authorizes a study on the suitability and feasibility of designating a 
new unit of the National Park System, it also identifies the study area 
as the ``French Colonial Heritage Area.'' A national heritage area 
differs from a unit of the National Park Service in a number of 
different ways, most notably is that a national heritage area is 
locally driven and does not include management by the National Park 
Service, whereas a unit is managed wholly or in part by the National 
Park Service.
    If the intent of the bill only is to study the area for potential 
designation as a national heritage area, we recommend amending the bill 
to authorize a feasibility study to examine such designation. If the 
intent is to study the area for potential inclusion as a new National 
Park System unit, or if it is unclear which type of designation is 
desired, the bill should be clarified by eliminating the references to 
the term ``heritage area''. A suitability and feasibility study to 
designate an Area as a unit will examine a range of alternatives, 
including whether a national heritage area designation is more 
appropriate than creating a new unit. We will be happy to work with the 
subcommittee to develop clarifying language prior to enactment of this 
legislation.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.

                               ON S. 429

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today to present the Department's 
views on S. 429, a bill to establish the Upper Housatonic Valley 
National Heritage Area in the State of Connecticut and the Commonwealth 
of Massachusetts.
    While a feasibility study has found the Upper Housatonic Valley 
area appropriate for designation, we recommend that the Committee defer 
action on S. 429 until program legislation is enacted that establishes 
guidelines and a process for designation of national heritage areas. 
Last year, the Administration sent to Congress a legislative proposal 
to establish such guidelines and a process for designation. This year, 
the Administration is working on a similar legislative proposal, and we 
look forward to continuing to work with Congress on this very important 
issue. Absent enactment of such program legislation establishing 
guidelines and a process for designation, we will look at a number of 
options, including consideration of potential offsets within the 
National Heritage Area Grants Program.
    Another reason we are recommending deferral is that given current 
fiscal constraints, any discussion of particular national heritage 
areas should be consistent with the President's budget. Funding in the 
FY 2006 President's Budget for the National Heritage Area program 
combined with funding from the First Lady's Preserve America program, 
the Save America's Treasures program, and historic preservation grants 
will go a long way toward supporting local efforts to preserve 
cultural, historical, natural, and recreational resources that reflect 
our nation's heritage.
    S. 429 would establish the Upper Housatonic Valley National 
Heritage Area, encompassing 29 communities in western Massachusetts and 
northwestern Connecticut, extending 60 miles through the watershed of 
the upper Housatonic River, from Kent, Connecticut to Lanesboro, 
Massachusetts. The bill would also identify the Upper Housatonic Valley 
National Heritage Area, Inc. as the management entity for the national 
heritage area.
    The Upper Housatonic Valley, sometimes referred to as ``the 
fourteenth colony'' is a singular geographical and cultural region that 
is characterized by significant national contributions in literature, 
art, music, and architectural achievements; its iron, paper, and 
electrical equipment industries; and scenic beautification and 
environmental conservation efforts. The region contains five National 
Historic Landmarks including the homes of W.E.B. DuBois, Edith Wharton 
and Herman Melville. Over 120 sites and 18 historic districts on the 
National Register of Historic Places dot the landscape. It was home to 
Nathaniel Hawthorne, painters Norman Rockwell and Jasper Johns, and 
sculptor Daniel Chester French, who sculpted the ``Seated Lincoln'' at 
the Lincoln Memorial. Among the Upper Housatonic Valley's early iron 
masters was Ethan Allen, the hero of Fort Ticonderoga and an early 
mercantile activist. Important events related to the Revolutionary War, 
Shays' Rebellion, and early civil rights activism also took place in 
the area. The region's performing arts centers--the Boston Symphony 
Orchestra's summer home at Tanglewood, Music Mountain, Norfolk Chamber 
Music Festival, Jacob's Pillow Dance Festival, Berkshire Theatre 
Festival, and Shakespeare & Company--are internationally known.
    The Upper Housatonic Valley contains a myriad of natural resources 
and has been the beneficiary of a long history of innovative 
environmental conservation initiatives that have been influential 
across the country. These include pioneering state parks and private 
nature preserves and the first village improvement society in America, 
the Laurel Hill Association, of Stockbridge, Massachusetts. Four 
National Natural Landmarks including unique bogs and an old growth 
forest have been designated here. The Appalachian National Scenic Trail 
follows the length of the Upper Housatonic Valley.
    The region was the site of pioneering endeavors in the iron, paper, 
and electrical generation industries. The iron industry, which was 
responsible for manufacturing 75% of the cannons used by the 
Continental Army during the American Revolution, was active from 1735 
until 1923. The first mill in America to make paper from wood pulp was 
located in Stockbridge, Massachusetts.
    Tied together by the Housatonic River, the region offers extensive 
opportunities for resource preservation, education, and heritage 
tourism. The heritage area designation would link together several 
existing historic sites, such as protected iron smelting sites, to 
strengthen the understanding of the regional historical significance of 
the valley. The area also reflects the rich traditions and folkways of 
the Mohican Indians, Shakers, Yankee farmers, African-Americans, and 
European immigrant groups. The educational and preservation value of 
the valley to residents was a major point of public support for 
designation.
    There is extensive citizen involvement in heritage activities in 
the Upper Housatonic Valley involving a broad array of municipalities, 
private organizations, and individuals. The non-profit organization, 
Upper Housatonic Valley National Heritage Area, Inc., has a broad-based 
membership and a strong track record in organizing heritage 
initiatives. Comments at public meetings, and those received as the 
draft feasibility study concluded, indicate strong public support for 
national heritage area designation.
    The Department's Feasibility Study for the Upper Housatonic Valley 
National Heritage Area found that the Upper Housatonic Valley meets the 
Department's ten interim criteria for designation of a national 
heritage area. The Upper Housatonic Valley is distinctive for having a 
landscape that includes a blend of industrial innovations, 
environmental conservation initiatives, and cultural achievements of 
national significance.
    This completes my testimony. I would be happy to answer any 
questions that you or any members of the subcommittee may have.

    Senator Thomas. Thank you very much. I think we'll 
generally try to submit questions for the record, rather than 
take our time now.
    Senator Talent, we're trying to get through here in half an 
hour. Did you have a statement?

        STATEMENT OF HON. JAMES M. TALENT, U.S. SENATOR 
                         FROM MISSOURI

    Senator Talent. Well, in view of that, Mr. Chairman, I'll 
just say welcome to Jim Baker, who's here from Ste. Genevieve 
to testify on the second panel, and I'll go ahead and submit my 
statement for the record.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Talent follows:]
Prepared Statement of Hon. James M. Talent, U.S. Senator From Missouri, 
                               on S. 323
    Mr. Chairman, thank you very much for holding this hearing on S. 
323, a bill to authorize a feasibility study regarding the future of 
historically French area in Ste. Genevieve, Missouri. And, thank you to 
Jim Baker, the Site Administrator in Ste. Genevieve for coming to 
Washington to testify in support of this legislation.
    The Ste. Genevieve is located on the west bank of the Mississippi 
River, just 1 hour south of St. Louis. The community contains many 
wonderful historic buildings and sites that are historic and cultural 
assets that tell the story of the significance of French culture and 
settlement of the United States.
    Although numerous French historic and cultural assets exist 
throughout the country, few sites explore the vast influence of the 
French presence in the Midwest prior to the Louisiana Purchase. The 
historic homes and buildings are the only original French Colonial 
Village left in the United States.
    These remarkable historic resources in Ste. Genevieve are unique, 
but most people outside Missouri haven't visited the area. This bill, 
S. 323, would authorize the National Park Service to do a feasibility 
study to see if the area would qualify to become a unit of the Park 
Service, or a National Heritage Area.
    The homes and buildings dating back to the late 1700's are 
currently managed by the State Department of Natural Resources and 
enjoy wonderful support from the local community. This feasibility 
study will mark the beginning of a local, state and federal 
partnership.
    Thank you so much for including S. 323 in this hearing and I look 
forward to statements from Mr. Baker and the National Parks Service.
                                 ______
                                 
                                   French Heritage Society,
                                       New York, NY, March 9, 2005.
Hon. Craig Thomas,
Chairman, Subcommittee on National Parks, Committee on Energy and 
        Natural Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I am writing in support of Senate Bill 323, 
the `French Colonial Heritage National Historic Site Study Act of 
2005'. The value of the historic resources described in the text of the 
bill is immense, and the scope of their significance truly ranks them 
on a national level. Our organization, the French Heritage Society, 
fully supports the legislation intended to study the suitability and 
feasibility of designating this area as a unit of the National Park 
System.
    The French Heritage Society, established in 1982, is dedicated to 
the preservation of French architectural patrimony in the United States 
and France. Our membership in 16 chapters throughout the country 
provides support for scores of significant historic buildings and 
gardens, as well as sponsoring cultural and educational programs for 
French and American curators, architects, students, and artisans.
    The architectural and historic resources of Ste. Genevieve deserve 
the close examination that would be accomplished as part of the 
National Park Service study described in Senate Bill 323. Their 
inclusion in the National Park System would allow the preservation and 
interpretation of these remarkable, nationally-significant treasures.
            Sincerely,
                                             Jane Bernbach,
                                                Executive Director.

    Senator Thomas. All right. Thank you very much.
    Just in summary, then, the Department, of course, has a 
study in one, supports the other three; however, suggests that 
they be held back until we get more clearly defined where we're 
going with Heritage Areas. Is that right?
    Ms. Matthews. Yes, sir.
    Senator Thomas. Okay. Thank you.
    Ms. Matthews. Thank you.
    Senator Thomas. Okay, can we have our second panel, please?
    This panel consists of Mr. James Baker, historic site 
administrator, Missouri Department of Natural Resources; Judy 
Billings, senior vice president, Lawrence Chamber of Commerce, 
Lawrence Convention and Visitors Bureau, also from Kansas; 
Ronald Jones, chairman, Upper Housatonic Valley Heritage Area, 
in Connecticut; and Ann Cousins, field representative, 
Preservation Trust of Vermont.
    Thank you all.
    Mr. Baker, we'll start with you.

STATEMENT OF JAMES BAKER, HISTORIC SITE ADMINISTRATOR, MISSOURI 
      DEPARTMENT OF NATURAL RESOURCES, STE. GENEVIEVE, MO

    Mr. Baker. Thank you.
    Chairman Thomas, members of the committee, my name is James 
Baker, and I serve as site administrator of the State-owned 
historic properties in Ste. Genevieve, Missouri. I'm here to 
testify on behalf of the State of Missouri in support of S. 
323, legislation to authorize an assessment of the significance 
of our French Colonial resources as a national historic site. I 
will present the key issues that justify this study. And I also 
bring letters of support from Ste. Genevieve and other 
organizations interested in this unique area of our Nation.
    Although numerous French historic and cultural assets 
remain throughout our country, few sites are able to reveal the 
vast influence of the French presence in the center of our 
continent prior to the Louisiana Purchase. The remarkable 
French Colonial resources in Ste. Genevieve are unique, but 
they're not widely known or represented in our national 
interpretive efforts. We have an opportunity to tell the story 
of this cultural identity at one of the most significant places 
in this country, an area proposed as the French Heritage Area.
    The site proposed for study in the legislation includes two 
of the only five remaining poteaux-en-terre, or posts-in-the-
ground, vertical log houses known to survive in North America, 
the Bauvais-Amoureux House, circa 1792, and the Bequette-
Ribault House, circa 1808, still stand together on their 
original sites, silent witnesses to an earlier time and 
culture.
    In addition, there is an opportunity to acquire adjoining 
land from willing private sellers to make the proposed French 
Heritage National Historic Site a reality. This site can 
interpret the Colonial settlement of the mid-Mississippi River 
Valley and draw attention to this unique area of our country.
    The cultural identity forged in this region during the 18th 
century is a story of national significant well beyond the 
ability of any State or local interpretive facility to present 
in an appropriate manner. The study authorized in S. 323 is the 
vehicle that can apply a national focus to these resources and 
create an integrated, interpretive approach to correct this 
problem.
    The historic region around Ste. Genevieve focuses on a 
corridor of French Colonial settlement along the Mississippi 
River, including resources at Cahokia, Fort de Chartres, 
Kaskaskia, Old Mines, and the St. Louis region. This rich 
collection of resources includes Ste. Genevieve's National 
Historic Landmark District, which preserves a significant 
number of 18th century French Colonial structures.
    Local archeological resources include the original sites of 
Ste. Genevieve and New Bourbon, as well as the salt-producing 
settlement at the Saline Creek and the rich agricultural 
resources of Le Grand Champ.
    We believe this framework of historic and cultural assets 
can provide the basis from which to tell an integrated and 
comprehensive story of the significance of French culture and 
settlement on the national character and fabric of the United 
States.
    Interpretive themes of national significance can be further 
developed to enhance the understanding of the region's 
resources. These include French Colonial exploration and 
settlement of the mid-Mississippi River Valley, French Colonial 
influences on the social, architectural, and economic history 
of the region, significance and impact of the Louisiana 
Purchase on the existing settlements, cross-cultural 
experiences between the French, English, black, and Native-
American populations, and the ongoing French influence in this 
area of our country. We feel the proposed assessment will 
confirm our belief in the national scope of these historic 
resources of this region.
    In summary, an untapped set of national assets in the 
region begs to be assessed and integrated within an overall 
interpretive plan. An opportunity to bring these national 
assets together as the proposed French Heritage National 
Historical Site can provide a place where the French experience 
can come to life while promoting the ongoing protection and 
visitation to the region's historic resources.
    S. 323 is legislation that is timely and needed, providing 
the opportunity to properly assess these resources and 
interpretive themes, and to chart an appropriate course of 
action. Therefore, the State of Missouri and its Department of 
Natural Resources are in full support of the legislation 
introduced by Senator Talent.
    I'm available for any questions. Thank you.
    Senator Thomas. Okay, thank you very much. Thank you for 
completing. You've got 50 seconds left.
    [Laughter.]
    Senator Thomas. This is your State, Senator. Do you have 
any comment?
    Senator Talent. Well, I sure don't want to exceed the 50 
seconds, Mr. Chairman.
    This is a wonderful area. And if we can unify it, this 
study shows that we can make it available to more people in a 
more coherent way. It's going to be great for everybody, 
preserve a part of history that just is not accessible or 
available in other places, and also be a tremendous asset to 
Ste. Genevieve and Missouri. And I applaud the Department on 
your foresight in seeking the study.
    And I appreciate your holding the hearing so expeditiously.
    Thank you, Mr. Chairman.
    Senator Thomas. Thank you very much.
    Ms. Billings.

 STATEMENT OF JUDY BILLINGS, SENIOR VICE PRESIDENT, LAWRENCE, 
  KANSAS CHAMBER OF COMMERCE, CONVENTION AND VISITORS BUREAU, 
                          LAWRENCE, KS

    Ms. Billings. I'll try to be as short.
    Chairman Thomas, members of the committee, my name is Judy 
Billings. I'm senior vice president of the Lawrence, Kansas 
Chamber of Commerce, and I serve as chair of a planning 
committee made up of representation from 27 counties in eastern 
Kansas to establish Bleeding Kansas National Heritage Area. We 
appreciate the opportunity to make a presentation to you today.
    We began the process toward establishing a National 
Heritage Area in 1999 by forming a 501(c)(3) management 
organization, with the goal of interpreting and promoting our 
shared heritage to commemorate the Sesquicentennial of the 
establishment of the Kansas Territory after the passage of the 
Kansas-Nebraska Act in 1954.
    Public meetings determined that the Bleeding Kansas story 
and all its underlying themes of the struggle for American 
freedom have had a significant impact on the development of our 
Nation. Activities undertaken by volunteers over the past 4 
years have brought us here today. We've followed the critical 
steps and suggested criteria defined by the National Park 
Service in a process that has been public and has fully 
informed key constituents, including governments, industry, 
private and nonprofit organizations, in addition to interested 
citizens. There has been full support from our Kansas 
congressional delegation.
    A suitability study demonstrating the significance of our 
story and its related themes--and I have it with me today--was 
funded through contributions by 52 entities, matched by our 
Kansas Department of Commerce.
    From its creation, Kansas found itself at the center of the 
storm brewing over slavery. The original intent behind the 
Kansas-Nebraska Act was to continue the balance of power 
between the free States and the slave States. Popular 
sovereignty gave the determining voice to local voters. The 
Kansas question became a focus of the Lincoln-Douglas debates, 
and ``Bleeding Kansas'' was a moniker that was popularized by 
Eastern newspapers describing the activities in Kansas.
    The core question that led to the Civil War was played out 
on the Western frontier in a series of heated and frequently 
deadly encounters. Kansas was an intersection of Northern and 
Southern expansion. It was freedom's frontier.
    Native Americans, African-Americans, women, free-staters, 
pro-slavers, and the government all had their own struggles in 
Kansas. Each of these groups had members who viewed Kansas as a 
``Promised Land,'' where they would live in freedom and fight 
for their rights.
    Events in Kansas were significant to the evolving story of 
American freedom. The Battle of Black Jack in 1856 was the 
first time two forces on opposing sides of the slavery issue 
met in open battle. In much the same way that the Battles of 
Lexington and Concord sounded the opening shots of the 
Revolutionary War, John Brown's victory at the Battle of Black 
Jack in Kansas was the first in the long Civil War over 
American slavery that would end at Appomattox Courthouse.
    Subsequent events echoed the early history of the area. 
Haskell Indian Nations University began in 1884 as a boarding 
school dedicated to destroying Indian culture. Its mission 
today includes the preservation of Indian traditions and the 
adaptation to current needs.
    The modern civil-rights movement played out in the landmark 
case Brown versus Board of Education now commemorated in a 
national historic site recently dedicated in Topeka, our 
capital city.
    Willing partners of all types in rural and urban areas have 
discovered links among our communities and our quest to share 
stories. We have a collective resolve to preserve, conserve, 
and share our interconnected stories, and we want to educate 
the youth of Kansas to generate a sense of place and pride and 
a shared heritage that gives them a desire to make Kansas their 
permanent home.
    Federal designation is compatible with our economic 
development initiatives, and will provide credibility for our 
work to enhance the inherent strengths of our rural communities 
based on heritage. We have considered and protected the impact 
on private-property rights, as written into our legislation.
    Thank you, again, for the opportunity to speak to you 
today. I ask for your support of S. 175 to establish the 
Bleeding Kansas and the Enduring Struggle for Freedom National 
Heritage Area.
    Thank you.
    [The prepared statement of Ms. Billings follows:]

 Prepared Statement of Judy Billings, Senior Vice President, Lawrence 
                   Chamber of Commerce, Lawrence, KS

    Chairman Thomas and Members of the Committee, my name is Judy 
Billings. I am Sr. Vice President of the Lawrence, Kansas, Chamber of 
Commerce & Convention and Visitors Bureau, serving as Chair of a 
planning committee, made up of representation from 27 counties in 
eastern Kansas, to establish Bleeding Kansas and the Enduring Struggle 
for Freedom National Heritage Area. We appreciate the opportunity to 
make a presentation to you today.
    We began the process toward establishing a national heritage area 
in 1999 with the formation of a 501C3 organization called Territorial 
Kansas Heritage Alliance (TKHA). This grassroots group of historians 
and tourism agencies was successful in completing a series of 
activities and projects in commemoration of the 150th anniversary of 
the Kansas Territory established as a result of events that took place 
after the passage of the Kansas-Nebraska Act in 1854.
    After much research of the heritage area movement and consultation 
with representatives of the National Park Service as well as with 
existing heritage areas, a facilitated Heritage Summit was held in 
January 2003 with 75 people in attendance representing various 
organizations and communities in the area. As a result of the Summit, 
the group determined that the Bleeding Kansas story and all the 
underlying themes of an Enduring Struggle for Freedom have had a 
significant impact on the development of our nation and that we should 
bring these heretofore hidden stories forward in a more comprehensive 
and collaborative way. The current grassroots planning committee was 
launched with a goal to gain federal designation during the 
Sesquicentennial Year of the Kansas Territory, an ambitious goal! 
Activities undertaken by volunteers over the past four years have 
brought us here today.
    We have conscientiously followed the critical steps and suggested 
criteria as defined by the National Park Service in a process that has 
fully informed key constituents including governments, industry, 
private and non-profit organizations in addition to interested 
citizens. There has been tremendous public involvement and support 
including from our Kansas Congressional delegation and staff.
    All partners have been fully and equally engaged in contributing 
important information to be included in the required suitability/
feasibility study compiled by a local historic preservation consultant 
and funded through the contributions by 52 entities ranging from $25 to 
$15,000 that was matched by the Kansas Department of Commerce. The 
study (show study) demonstrates the significance of our story and 
identifies major themes with national significance unique to this area. 
The study also demonstrates the widespread support of this effort.
    There are many layers in our story of the struggle for freedom. 
With the route of Lewis and Clark along the eastern boundary of the 
Bleeding Kansas Heritage Area and the path of the California, Oregon 
and Santa Fe Trails through several counties in the defined area, 
stories reflect the significant impact of those who came, those who 
stayed and their struggles that endure even today in this sparsely 
populated part of the country.
    From its creation Kansas found itself at the center of the storm 
brewing over Slavery. The original intent behind the Kansas-Nebraska 
Act was to continue the balance of power between the Free States and 
the Slave States. Popular Sovereignty gave the determining voice to the 
local voters. The determination that Kansas would enter the union as a 
free state was not without tremendous struggle. ``The Kansas Question'' 
became a focus of the Lincoln-Douglas debates and ``Bleeding Kansas'' 
was a moniker that was popularized by Eastern newspapers describing the 
activities in Kansas. The core question that led to the Civil War, 
which would ultimately redefine the identity of the nation, was played 
out on the western frontier in a series of heated and frequently deadly 
encounters. Kansas was an intersection of Northern and Southern 
expansion.
    Native Americans, African-Americans, Women, Free-Staters, Pro-
slavers, and the Government all had their own struggles in Kansas. For 
example, immigrant Native American tribes forcibly relocated from the 
Southeast and Eastern Woodlands experienced the challenge for survival 
in a move from well wooded lands with a decent supply of game to the 
drier areas of Kansas. African Americans were brought in as slaves by 
Missionaries, government employees and later purchased by some Native 
Americans. Each of these groups had some members who chose to seek 
freedom by escaping bondage while viewing Kansas as a ``Promised Land'' 
where they could live in freedom if they reached the right area through 
the Underground Railroad. Women saw the Kansas Territory as a fertile 
site to fight for their rights and Free-Staters were the first 
opposition group in Kansas to rebel against voter fraud and the attempt 
to force Kansas in as a Slave state.
    Events in Kansas have been significant to the evolving story of 
American freedom. The Battle of Black Jack in southern Douglas County 
was the first time two forces, on opposing sides of the slavery issue, 
met in open battle. In much the same way that the Battles of Lexington 
and Concord sounded the opening shots of the Revolutionary War, John 
Brown's victory at the Battle of Black Jack was the first in the long 
Civil War over American slavery that would end nearly a decade later at 
Appomattox Courthouse.
    Subsequent events echoed the early history of the area. Haskell 
Indian Nations University began as a boarding school dedicated to 
destroying Indian culture by removing children from their homes and 
families, and trying to force them to abandon their traditions. 
Ironically, the school developed into a focal point for the creation of 
an inter-tribal Native American identity. Haskell today is the 
country's only four year Indian university which accepts students from 
all the federally recognized tribes, and its mission includes the 
preservation of Indian traditions and their adaptation to modern needs.
    The modern civil rights movement has been played out to a 
significant degree in our area as well. The landmark case Brown vs the 
Board of Education is commemorated in a national historic site recently 
dedicated in Topeka, our capital city.
    The process we have followed has already brought rural areas 
together with urban areas. We have found willing partners of all types 
and discovered links among our communities in our quest to share our 
stories. There are at least 7 National Historic Landmarks, 32 National 
Register properties, 3 Kansas Register properties and 7 properties 
listed on the National underground Railroad Network to Freedom that 
contribute to our heritage area as well as other significant properties 
that have not been designated at this time.
    We have a collective resolve to preserve, conserve and share our 
interconnected stories with Kansas citizens as well as visitors from 
around the world with great potential for recreational and educational 
opportunities. We want to educate the youth of Kansas to generate a 
sense of place and pride in a shared heritage and to give them a reason 
to make Kansas their permanent home.
    A heritage area designation for our state is compatible with our 
economic development initiatives and is needed in order to expand the 
existing cooperative framework to achieve key preservation, education 
and other significant goals. Federal designation will provide 
credibility in enhancing inherent strengths of small towns and rural 
communities--close-knit communities, strong local business networks, 
and a tradition of entrepreneurial activity based on our heritage. 
Private property rights are important in our state and we have 
considered and protected the impact on private property rights as 
written into our legislation.
    Thank you again for the opportunity to speak to you today. I ask 
for your support of S. 175 to establish the Bleeding Kansas and the 
Enduring Struggle for Freedom National Heritage Area.

    Senator Thomas. Thank you very much.
    Ms. Cousins.

   STATEMENT OF ANN COUSINS, FIELD SERVICES REPRESENTATIVE, 
         PRESERVATION TRUST OF VERMONT, BURLINGTON, VT

    Ms. Cousins. Chairman Thomas, members of the subcommittee, 
thank you for the opportunity, on behalf of the Cultural 
Resources Heritage Organizations and the American and traveling 
public that will benefit from enactment of the Champlain Valley 
National Heritage Partnership Act.
    Looking at a map of Eastern North America, it is not hard 
to imagine the significance of the 350-mile-long water corridor 
formed by Lake Champlain and its linked waterways. Formed from 
receding glaciers 15,000 years ago, this inland waterway became 
one of the most strategic north/south transportation corridors.
    Paleo-Indians arrived in the Champlain Valley not long 
after that last glacier receded, and, in 1609, European 
explorers first ventured into the region: Henry Hudson, 
traveling north on the river that now bears his name to what is 
now Albany, and Samuel de Champlain venturing south, on behalf 
of France, to the lake that also has his name, Lake Champlain.
    The valley served as trapping and hunting grounds to feed 
the European fur trade. When competition led to Iroquois raids 
on those French posts, the French built a series of 
fortifications and allied themselves with the Algonquians. This 
rising tension coincided with the British takeover of New 
Netherlands and their penetration into the Champlain Valley.
    This meeting of nations resulted in a 150-year struggle for 
control, and the Champlain Valley became a theater for a series 
of bloody conflicts, including inter-tribal wars, the French 
and Indian War, the American Revolution, and concluding with 
the War 1812.
    Two battles, in particular, help to illustrate the national 
significance of this area. But for events on Lake Champlain, 
the outcome of the War for Independence would like have had a 
very different outcome. In 1776, Benedict Arnold's hastily 
built Champlain fleet, America's first, engaged the Royal Navy 
at what has become known as the Battle of Valcour Island. 
Today, that site is a national historic landmark.
    One historian described it best 100 years ago, ``The little 
navy on Lake Champlain was wiped out, but never has any force, 
large or small, lived to better purpose or died more 
gloriously. That the Americans were strong enough to impose a 
capitulation of the British Army at Saratoga was due to the 
year delay secured by their little navy on Lake Champlain.''
    With history repeating itself, strategic consideration 
again placed Lake Champlain in the center of the War of 1812. A 
series of raids and bungled invasions brought little 
consequences to the first 2 years of that war, but, in 1814, 
the British mounted a major invasion of the American colonies 
by water and land. Thomas Macdonough led the American fleet to 
victory in the pivotal, nationally significant Battle of 
Plattsburgh Bay, and the British Army, without its naval 
support, retreated back to Canada. As a result, in December 
1814, the Treaty of Ghent brought lasting peace between Great 
Britain and the United States.
    Peace in the Champlain Valley ushered in an era of commerce 
and industry. That regional prosperity was directly related, 
again, to the transportation corridor. Transportation of goods 
going north into Canada, south to New York via the Champlain 
Canal that was built, in 1823, and the Chambly Canal, in 1943.
    By the mid-19th century, Lake Champlain bustled with 
trading schooners and sloops, sailing canal boats, barges, 
steamboats, even horse-powered ferries, moving everything 
produced in the Champlain Valley and bringing back everything 
needed.
    Today, these storied waterways are enjoyed by countless 
visitors. Tourism is vital to the region's economy. Champlain 
Basin visitors spend 1.4 billion on goods and services 
annually.
    Senators, our stories can be read in history books and 
experienced at the heritage sites, like Fort Ticonderoga and 
Mount Independence, but there are over 150 organizations in the 
region working in heritage-related activities. We have almost 
an embarrassment of riches and a tremendous need.
    State and local museums have long stewarded our nationally 
significant artifacts. Now they look to this act to help 
protect and share that legacy. Enactment of the Champlain 
Valley Heritage Partnership Act will provide them with a 
coordinating structure. The bill is rightfully called a 
partnership. It brings Federal financial and technical 
experience to benefit local publicly and privately owned and 
managed sites. It builds on the strength of existing 
initiatives. It does not--this protection does not include land 
acquisition or top-down management. The program does not 
delineate a boundary, yet it creates unifying themes that local 
communities and organizations can choose to opt into, or not. 
The act responds to public sentiment.
    Ladies and gentlemen, there is a strong constituency poised 
to take advantage of this act in appropriate ways.
    I thank you for your consideration.
    Senator Thomas. Mr. Jones.

STATEMENT OF RONALD D. JONES, CHAIRMAN, UPPER HOUSATONIC VALLEY 
          NATIONAL HERITAGE AREA, INC., SALISBURY, CT

    Mr. Jones. Thank you, Mr. Chairman, members of the 
committee, for the privilege of appearing before you in support 
of S. 429.
    I am Ronald Jones, of Lakeville, Connecticut, and I am the 
chairman of the Upper Housatonic Valley Heritage Area, Inc. We 
would hope to add the word ``national'' in there. And we have 
worked for many years to become a National Heritage Area; 
indeed, since 1999.
    Pursuant to the 2000 legislation directing a study of our 
area, the National Park Service did study and found that we met 
all the criteria for designation. I should note that those 
criteria are essentially identical to those criteria in the 
generic heritage bill that you have proposed. We are living 
test of the working of that process that you set forth in the 
generic bill.
    Our area, with its small towns, ancient mountains, flowing 
streams, has, as the National Park Service recognized, a very 
special cultural and natural and historical heritage of 
national significance. We have very broad public support for 
our program, from the cultural and conservation organizations, 
schools, businesses, the rotary clubs, the chambers of 
commerce, the local governments, the State governments, and 
many others. Indeed, in 6 years that I've been working on this, 
no one has risen in opposition to the designation; and, indeed, 
I have never heard anyone say, ``Gee, that's a crazy idea. 
That's a bad idea.'' That is very rare, in my experience.
    Earlier on, we were told that if we wanted to be designated 
as a Heritage Area, we should start acting like one. And we 
have five ongoing efforts that we are doing. We're working on a 
shoestring, but we are undertaking some heritage trail--we have 
a heritage trail brochure, we have a graduate course in--for 
high-school teachers, we have other--we have annual heritage 
walks. We are trying to act like a Heritage Area to show that 
we deserve to get the designation.
    We think it is a great, great program. It's a wonderful 
Federal/State partnership. And we hope that our bill will be 
considered by your Committee.
    I thank you, and the green light is still on.
    [Laughter.]
    [The prepared statement of Mr. Jones follows:]

   Prepared Statement of Ronald D. Jones, Chairman, Upper Housatonic 
     Valley National Heritage Area, Inc., Salisbury, CT, on S. 429

    Mr. Chairman and Members of the Committee, I am Ronald D. Jones and 
I am appearing in support of S. 429, the Upper Housatonic Valley 
National Heritage Area Act. I am Chairman of the proposed Management 
Entity, Upper Housatonic Valley National Heritage Area, Inc. 
(``UHVNHA'') I am also past-President of the Falls Village-Canaan (CT) 
Historical Society, Secretary of Friends of Beckley Furnace, Trustee of 
the Salisbury Association and a former Member of the Connecticut 
Humanities Council. I appreciate the opportunity to present our 
thoughts on the proposed legislation.
    S. 429 proposes to designate the Upper Housatonic River Valley as a 
National Heritage Area and to establish guidelines, standards and 
requirements for the Area. UHVNHA would be designated as the management 
entity for the Heritage Area, to work with the National Park Service 
and the many local heritage organizations.
    Pursuant to the Upper Housatonic Valley National Heritage Area 
Study Act of 2000, P.L. 106-470, the National Park Service conducted an 
extensive feasibility study and earlier this year issued a ninety one 
page report concluding that our area meets all of the criteria included 
in the Study Act. The Report concludes that the Area does have a 
cultural, natural and historical heritage of national significance, 
that the Area's organizations, local governments and residents strongly 
support designation and that UHVNHA is qualified and suitable to be the 
management entity. Pursuant to the 2000 Act, the National Park Service 
submitted the Report to the House Committee on Resources.
    The Report and the subsequent National Park Service Brochure 
identify these four major heritage themes:

    1. Artists, Writers and Musicians of yesterday and today have made 
the Area a unique cultural area within the United States,
    2. The Area has a renowned scenic landscape, much of it reclaimed 
from the 18th century iron and other industrial activity,
    3. The Iron, Fine Paper and Electric Industries all developed a 
nationally significant presence in the Area, and
    4. From Ethan Allen and Shays' Rebellion to W.E.B. DuBois and 
today's leaders, the Area has played a nationally significant role in 
the development of democracy.

    The Report also identified further heritage themes, including the 
Mohican Indians, the Shakers and the many historic Towns. I will not 
restate all of this material, but will provide my thoughts on the main 
points.

   THE UPPER HOUSATONIC AREA HAS A DISTINCTIVE HISTORY, HERITAGE AND 
           CULTURE WORTHY OF IDENTIFICATION AND PRESERVATION

    In the early days of our country the upper Housatonic valley was 
often referred to as the ``Fourteenth Colony'' because of its 
distinctive history and culture. The 950 square mile area, located in 
northwestern Connecticut and western Massachusetts, is a quiet area 
bounded by commerce and development along the Connecticut River to the 
east and the Hudson River to the west. The valley contains many small, 
old towns, with the largest cities being Pittsfield (population 41,000) 
at the northern end and Great Barrington (population 7,600) in the 
central part. Farms still dot the countryside, homes from the 1700's 
and 1800's stand throughout the area.
    An iron production industry thrived in the upper Valley from 1734 
to 1923, drawing on the high grade Salisbury ore found along the 
eastern side of the Taconic range. The iron activity had no use for 
state boundaries and provided a heritage common to northwestern 
Connecticut and western Massachusetts. Similarly, artists, authors and 
actors have ignored the state boundary in developing the cultural 
community that thrives to this day. Developing this common heritage by 
incorporating parts of the two States will ensure the maximum support 
and coordination.

    THE VALLEY'S STORY IS AN IMPORTANT PART OF OUR NATIONAL HERITAGE

    The upper valley iron industry played an important part in the 
nation's history, beginning with the early tools, artifacts and anchors 
forged in the mid-1700's. During the Revolutionary War, cannons were 
cast and drilled at the blast furnace in Lakeville, Connecticut. 
Because of their quality and since the British troops never reached the 
remote northwest corner, some 75 % of all of the cannons made in the 
states for General Washington's army were produced at the Lakeville 
Furnace.
    Salisbury iron was turned into weapons in time of war and into the 
structures, tools and artifacts necessary for the westward growth of 
the country. Salisbury iron was used at the Springfield Arsenal for the 
manufacture of muskets and at the Whitney arms factory in New Haven for 
rifles. From the mid 1800's into the twentieth century, the major 
product was cast iron railroad wheels. Because of their quality, 
advertised as being the best in the world, the wheels had a broad 
market throughout the country and many were exported to South America 
and Europe. From beginning to end, the Valley's ironworks were closely 
related to the development of the United States. The landmark remains 
are our present and future heritage.
    The Valley's history as a cultural retreat from the Boston and New 
York areas provides both past and current riches for the country. Since 
the 1930's visitors from all over have come to hear the music at 
Tanglewood, Music Mountain and Norfolk, see the paintings at the Norman 
Rockwell Museum, watch serious theater at Stockbridge and musical 
treats at Sharon. Today's local authors draw on a long tradition going 
back to the 19th century, when Herman Melville, Nathaniel Hawthorne and 
Edith Wharton lived and wrote here. The Upper Housatonic Area,, with 
its remoteness from but ties to the large cities, occupy a special 
niche in our national culture.
    The remaining small family farms in the Valley are a reminder of 
similar farms once so common throughout New England. These early farms 
established the concepts, methods and traditions for those who later 
moved to the more fertile lands to the west. Population increases, 
commercial growth and land economics have eliminated many farms 
throughout New England, but those of the Valley retain the rural 
heritage.
    Our country is proud to be the ``melting pot'', with its population 
drawn from many countries and continents. Thanks to the iron industry 
activity, the Valley is a special example of this. Chard Powers Smith, 
in his classic 1946 book ``The Housatonic'', called his subject the 
``Puritan River'' after the culture of the early settlers. And indeed, 
many residents trace their families back to those days. But, especially 
with the coming of the blast furnaces in the 1800's, arrivals came from 
all over--charcoal makers from France and Spain, miners from Wales and 
Scotland, stone workers from Italy and Switzerland and iron workers 
from Ireland. African Americans came to the Valley, some as free men 
and some making their progress along the underground railroad. Local 
Native Americans show up on the early payrolls, as they joined in the 
hard and fiery tasks. All of this has given today's Valley a very 
special heritage.
    The Valley would not have been very pretty back in the iron era, 
with the hills and valleys denuded of trees for the charcoal making and 
the forges, furnaces and charcoal pits emitting fire and smoke. But all 
has changed and today's Litchfield Hills and Berkshires are known for 
their beauty. The Appalachian Trail and many other walking trails and 
country roads provide opportunities for hiking and backpacking, while 
the many rivers and streams provide excellent fishing. Wildlife is 
abundant, as I watch deer, wild turkeys and the occasional fox cross my 
front lawn in Lakeville. People from around the country come in October 
for the pleasure of watching the red, gold and copper turning of the 
leaves while sharing a night or a meal at one of the many historic 
country inns. Our citizens and visitors recognize that the Valley's 
heritage has a very special national interest.

   THE UPPER HOUSATONIC VALLEY PRESENTS GREAT OPPORTUNITIES FOR THE 
              PRESERVATION AND DEVELOPMENT OF THE HERITAGE

    The world of the Housatonic Valley has not moved at the pace of 
surrounding areas, providing a great opportunity, if we all move 
expeditiously, for preservation and development of the special heritage 
The Valley has one of the largest concentrations of structures on the 
National Register of Historic Places, but many need technological and 
funding help if they are to survive. The tristate Iron Heritage Trail 
is an official project of the federal ``Save America's Treasures'' 
program. Our Iron Heritage Committee has identified more than a hundred 
sites of iron era historic importance with the potential for either 
preservation or, at the least, being the site of educational historical 
markers. Many other existing sites and structures symbolize the farms, 
industry, commerce and homes through the centuries.
    The 1847 Beckley Iron Furnace is an example of what can be 
accomplished. The Furnace ceased operation in 1918 and the surrounding 
buildings were removed, leaving the furnace tower. The State of 
Connecticut acquired it in 1946, designating it as its first, and still 
only, ``Industrial Monument''. Receiving only minimum care over the 
next fifty years, the Furnace was ready to collapse by 1996, when 
several of us decided to take action. Realizing that public awareness 
and interest were vital, we organized programs and other events, 
distributed more than 5,000 copies of an Iron Trail brochure, published 
a 136 book on the iron era heritage, including a detailed tristate 
heritage trail, and sold more than 100 autographed lithograph prints of 
an A.N. Wyeth painting of the Furnace. Responding to this the State 
carried out a $ 250,000 stabilization program and has acquired an 
adjacent 1869 structure that we have converted into an educational 
center. We work closely with the State on this and will continue to do 
so in the future.
    But other furnaces remain in all sorts of disrepair, as do the mine 
sites, forge sites and the many charcoal pits found throughout the 
revived forests. The Sharon Historical Society was recently able to 
restore a 19th century lime kiln, another reminder of the area's 
heritage. Other business structures, including landmark railroad depots 
and 19th century industrial buildings, can be found in the small 
communities. Many 18th and 19th century homes remain, some the large 
homes of the well to do and others the homes of the workers who came to 
the Valley. As we enter the new century, the Valley provides a great 
potential for preserving our special heritage.
    That heritage extends to our natural heritage, as the old 
industrial sites have been restored to today's beautiful scenery. But 
this requires constant maintenance and preservation. All of this will 
benefit the residents as well as the many visitors who come to the 
area.

   BROAD SUPPORT EXISTS FOR THE PROPOSED NATIONAL PARK SERVICE STUDY

    A wide range of groups--historical societies, town governments, 
museums and historical sites, civic clubs and others have expressed 
strong support for the establishment of a National Heritage Area. Our 
local State legislators are enthusiastic about the potential for 
celebration and preservation of the heritage. Attachment A lists more 
than two hundred official supporters, including regional and local 
heritage organizations, local governments, schools and individuals.
    Many of our supporters have gathered for our several heritage 
events, including a Shays Rebellion History Fair and our annual October 
Weekend of Heritage Walks. Last year we, with our participating 
heritage organizations, offered 46 well attended walks celebrating our 
natural, historical and cultural heritage.
    Our efforts will tie in with the local economy. We have the support 
of and are working with the Area's Rotary Clubs and Chambers of 
Commerce, the Northwest Connecticut Travel Council and the Berkshire 
Visitors Bureau. All see this as an opportunity to improve our rural 
economy.
    We have distributed more than 30,000 copies of the NPS Brochure 
throughout the Area, drawing favorable comment from the readers. 
Especially important, no one has come forward to oppose us, to 
denigrate or complain about what we are doing.
    Every year more people come to enjoy the pleasures and heritage of 
this special area, people who share the goal of seeing this it will 
still be there for their children.

     WE ARE ORGANIZED TO FULFILL OUR PRESERVATION AND DEVELOPMENT 
       OBLIGATIONS IN PARTNERSHIP WITH THE NATIONAL PARK SERVICE

    The Tri-Corners History Council was organized in 1995 to work with 
local groups to preserve, develop and celebrate the heritage of 
northwestern Connecticut, southwestern Massachusetts and the adjoining 
area of New York, roughly the area at the core of the Upper Housatonic 
Valley National Heritage Area. In 1999 the Council established the 
``Upper Housatonic Valley National Heritage Area Assembly'' as an 
initial step towards becoming designated as a National Heritage Area. 
An Advisory Board was established, with every supporting group 
authorized to designate a member.
    As an outgrowth of the Assembly, UHVNHA was organized in 2000 as a 
not-for-profit corporation to coordinate with the National Park Service 
in its Feasibility Study and to begin the development as a Heritage 
Area. Working through a ten member Board of Directors and a fifty 
member Advisory Board, we have sought to be all inclusive in 
participation, activities and planning. We are now setting standards 
for making heritage grants and will establish a totally non-
discriminatory, objective approach to this process. We are also 
evolving to best carry out the responsibilities of the management 
entity as described in the Act.
    UHVNHA has a Section 501(c) (3) tax exempt status with the Internal 
Revenue Service. All Board members are volunteers and we anticipate 
employing a part-time Executive Director in the future.
    We currently have five projects already underway:

  1. An Iron Heritage Trail, with a comprehensive brochure issued in 
            October, 2004.
  2. A Graduate Level Heritage Course for local teachers.
  3. A regional African-American Heritage Trail
  4. An arts/environmental celebration--Housatonic River Summer 2005
  5. Our 4th annual October Weekend of Heritage Walks.

    In summary, the Upper Housatonic Valley Heritage Area is an 
important, well defined part of our national heritage, with three 
centuries of history of a very hard working people. We urge you to 
consider and approve H.R. 4312, the Heritage Area Study Act of 2000. We 
thank the Committee for this opportunity to present our story and I 
will be happy to answer any questions.
    NOTE: Appendix A. ``Official Supporting Entities'' has been 
retained in subcommittee files.

    Senator Thomas. Good job.
    Well, thank all of you. And I apologize for us being kind 
of in a sweat to get it done today.
    So, at any rate, thank you, and we'll call on our next 
panel: Mr. John Cosgrove, the executive director of the 
Alliance for National Heritage Areas, and Mr. Peyton Knight, 
executive director, American Policy Center, and Washington 
representative for the American Land Rights Association.
    Mr. Cosgrove. Start right in, Mr. Chairman?
    Senator Thomas. Start right in, Mr. Cosgrove.

STATEMENT OF JOHN W. COSGROVE, EXECUTIVE DIRECTOR, ALLIANCE OF 
                    NATIONAL HERITAGE AREAS

    Mr. Cosgrove. Thank you.
    Mr. Chairman and distinguished members of the committee, my 
name is John Cosgrove, and I am the executive director of the 
Alliance of National Heritage Areas, an organization whose 
membership includes, among others, the 27 congressionally 
designated National Heritage Areas.
    I very much appreciate the opportunity to appear before the 
committee today to discuss National Heritage Areas and their 
emergent reputation for effectively improving the quality of 
life in regions across the country today.
    Heritage Areas can be fostered by the philanthropy of an 
individual or by the collective involvement of foundations, 
businesses, governments in a regional project. Our latest 
estimate indicates that Heritage Areas have sprouted in more 
than 150 places throughout the United States. This position in 
the preservation industry has become the catalyst for the 
creation of investment in economic development strategies in a 
number of states through the Federally-sponsored initiatives 
with the National Park Service and many other Federal agencies, 
departments, and partners.
    The evidence of the positive impact of heritage development 
is becoming more and more clear. Just in the year of 2004, over 
42.9 million people visited Heritage Areas. Volunteers worked 
very near 220,000 hours in Heritage Areas. Heritage Areas 
awarded 341 grants, which leveraged over $44 million in 
additional funds. National Park Service Heritage Partnerships 
Programs funding leverage 83.6 million in other Federal, State, 
local, and private dollars. That's a ratio of one to six.
    National Heritage Areas are renowned for their 
entrepreneurial practices in encouraging private-sector 
development while protecting significant historic and cultural 
resources. They are recognized more and more for their 
creativity in fostering regional partnerships that expand 
economic development and increase tourism opportunities in 
communities all over America.
    National Heritage Areas are effective clearinghouses, where 
citizens are comfortable in coming together to voice their 
opinions, to rigorously debate or simply to express concerns 
over very real issues facing their regions. Critical issues 
like regional planning, cultural conservation, private-property 
rights, economic vitality, educational excellence, and 
environmental stewardship are all part of regional project 
deliberations. And the goal is to reach consensus and accord. 
And that is the centerpiece of true heritage development.
    On behalf of the Alliance of National Heritage Areas and 
all of our members, I want to thank the committee and all of 
our partners in the National Park Service and beyond who have 
diligently labored with us to craft a genuine partnership of 
creativity, openness, and common purpose in improving the 
quality of life in regions all across the United States.
    Mr. Chairman, I truly appreciate the opportunity to testify 
before the Committee today.
    [The prepared statement of Mr. Cosgrove follows:]

      Prepared Statement of John W. Cosgrove, Executive Director, 
                  Alliance of National Heritage Areas

    Mr. Chairman and distinguished members of the Committee, my name is 
John W. Cosgrove. I am the Executive Director of the Alliance of 
National Heritage Areas, an organization whose membership includes, 
among others, the 27 congressionally designated National Heritage 
Areas. I very much appreciate the opportunity to appear before the 
Committee today to discuss National Heritage Areas and their emergent 
reputation for effectively improving the quality of life in regions all 
across the country today.
    For over 20 years, heritage areas have grown from a vague and 
imprecise concept to a genuine and commanding national movement. 
Heritage areas span a wide spectrum of community-based activities. They 
can range from a singular endeavor to save a group of historic 
buildings to a wide-ranging and comprehensive approach to regional 
conservation, preservation, tourism and economic revitalization. 
Heritage areas can be made up of a cluster of neighborhoods, or they 
can be multi jurisdictional, crossing the boundaries of counties, 
regions and even states.
    Heritage areas can be fostered by the philanthropy of an 
individual, or by the collective involvement of foundations, businesses 
and governments in a regional project. Our latest estimate indicates 
that heritage areas have sprouted in more than 150 places throughout 
the U.S. This position in the preservation industry has become the 
catalyst for the creation of investment and economic development 
strategies in a number of states and through the federally-sponsored 
initiatives with the National Park Service and many other federal 
agencies and departments.
    In the year 2004:

  <bullet> Over 42,900,000 people visited heritage areas, and 
        volunteers worked very near 220,500 hours in heritage areas.
  <bullet> Heritage areas formalized relationships with 1,274 partners, 
        and 3,639 informal relationships with partners.
  <bullet> Heritage areas and their partners managed over 550 
        educational programs and over 735,000 people participated in 
        those educational programs.
  <bullet> Heritage areas awarded 111 grants to National Register-
        eligible structures, and contributed to 113 enhancements 
        projects.
  <bullet> Heritage areas awarded 341 grants which leveraged $ 
        44,488,296 in additional funds.
  <bullet> Heritage areas awarded 66 grants for recreation trails, 
        assisting in the creation and enhancement of 85 miles of trails 
        and 83 trails projects.
  <bullet> NPS Heritage Partnerships Program funding leveraged 
        $83,691,954 in other Federal, state, local, and private 
        dollars, a ratio of 1:6.

                   HISTORY OF NATIONAL HERITAGE AREAS

    The development of National Heritage Areas dates to the 1980s, and 
the history of their development is a study of politics at the grass 
root levels of American society. The first NHAs designated by the 
Congress were experiments in new conservation efforts that involved 
local constituencies as the primary stewards for the protection of 
resources. This new conservation strategy was a clear departure from 
the Department of Interior, and specifically the National Park Service, 
from owning and operating the historic and natural resources that made 
up the NHA. In the ensuing years Congress created a handful of other 
NHAs.
    In the mid-1990s, the idea of NHAs as a ``new'' approach to a 
comprehensive conservation and community development strategy began to 
emerge. Pushed in part by the emergence of several state heritage 
programs, local efforts sprouted in many states, with the majority 
found in the eastern United States. Of these, several sought 
congressional designation as NHAs.
    Legislation was proposed to create a group of NHAs, along with a 
program, to exist within the National Park Service. Following several 
attempts, the programmatic legislation failed. At the eleventh hour of 
the second session of the 104th Congress, the program language was 
stripped from the National Heritage Area bill, and the proposed NHAs 
were packaged within a larger omnibus parks bill that ultimately passed 
Congress and was signed into law. Consequently, the lack of successful 
passage of programmatic legislation reinforced the process under which 
NHAs are currently designated.
    Today, 27 NHAs have been created by the Congress.
    From New England to the deep south, through the mid-west and now 
advancing to the far west--citizens have come together to conserve 
their heritage, create recreational resources and protect greenways. 
These very citizens are working to conserve and to interpret their 
heritage in order to develop a sense of place that works to increase 
the value of their property and to improve the quality of life in their 
neighborhoods and communities.
    Not every National Heritage Area is the same. NHAs are as unique as 
the resources they work to conserve. Each NHA, does however, share a 
fundamental philosophy to achieve five specific goals:

  <bullet> to conserve historic and cultural resources
  <bullet> to conserve natural and enhance the development of 
        recreational resources
  <bullet> to develop educational and interpretative resources
  <bullet> to help stimulate heritage tourism and economic development
  <bullet> to establish partnerships to help steward the advancement of 
        the heritage area

    According to what the regional citizenry identifies through often 
exhaustive and strategic public engagement, each NHA might prioritize 
these goals in different ways.

                             HOW NHAS WORK

    National Heritage Areas are special places in America, merging 
community resources to promote conservation and community and economic 
development--or heritage development.
    NHAs harness a wide range of community assets and interests--from 
historic preservation, outdoor recreation, museums, performing arts, 
folk life and crafts, and scenic and working landscapes, to grassroots 
community-building activities--that when combined--create a sum greater 
than its parts.
    NHAs celebrate the special character and culture of places, and 
have a strong sense of place and identity. They are neither urban nor 
rural and often include communities and sites throughout a region. 
Typically, NHAs work to protect historic and cultural resources while 
encouraging development for tourism and other economic opportunities.
    NHAs illuminate the history and culture of a region so those people 
within that region feel proud of their heritage and so those who visit 
that region come away with a deeper appreciation of that region's 
culture and its resources.
    Few government programs can point to such accomplishment and to 
such broad and expanding levels of success as National Heritage Areas. 
At their very creation, hardly anyone would have predicted that NHAs 
would be as popular as they are today. NHAs are often held up as 
paramount examples of just how government and local communities can 
work effectively together as partners.
    In September of 2004, the National Trust for Historic Preservation 
and the Advisory Council on Historic Preservation presented the 
National Park Service and the Alliance of National Heritage Areas with 
the prestigious National Trust-ACHP Award for Federal Partnerships in 
Historic Preservation.
    NPS Director Fran Mainella and ANNA Chairman Augie Carlino received 
the award on stage before an audience of thousands of preservation 
professionals and advocates. The ceremony, broadcast nationally by Home 
and Garden Television, featured a video presentation highlighting the 
partners' activities at the national and local levels. Featured in the 
nomination for this prestigious award were specific examples of the 
extraordinary partnerships that illustrate the amazing collaboration 
between the National Park Service and heritage areas across the nation.
    NHAs are renowned for their entrepreneurial practices in 
encouraging private sector development while protecting significant 
historic and cultural resources. They are recognized for their 
creativity in fostering regional partnerships that expand economic 
development and increase tourism opportunities in communities all over 
America.
    At a White House ceremony held on May 3, 2004, two National 
Heritage Areas were honored by President and Mrs. Bush as recipients of 
the first annual Preserve America Presidential Awards. Lackawanna 
Heritage Valley in northeastern Pennsylvania and the Blue Ridge 
Heritage Initiative each received recognition for their exemplary 
heritage tourism efforts. President Bush presented the award 
certificates in the Oval Office of the White House. A public reception 
in the State Dining Room and a program in the East Room followed 
featuring presentations by Mrs. Laura Bush, Secretary of the Interior 
Gale Norton and Chairman of the Advisory Council on Historic 
Preservation John Nau.
    National Heritage Areas are effective clearinghouses where citizens 
are comfortable in coming together to voice their opinions, rigorously 
debate, or simply to express concerns over real issues facing their 
regions. Critical issues like regional planning, cultural conservation, 
private property rights, economic vitality, educational excellence, and 
environmental stewardship are part of regional project deliberations 
with the goal of reaching consensus and accord as the centerpiece of 
true heritage development action.
    National Heritage Areas are grass roots efforts that--by their very 
nature--demand inclusive planning by all facets of the community.
    This has been a watershed year for heritage development in our 
nation and a significant year of growth for the Alliance of National 
Heritage Areas. We are grateful for our strong partnership with the 
National Park Service and our other valued federal partners, the many 
state heritage development programs with whom we work, private 
industry, foundations, corporations, and educators who are so generous 
in sharing with us their expertise, guidance, and resources.
    On behalf of the Alliance of National Heritage Areas and our 
members, I want to thank the Committee and all of our partners in the 
National Park Service, who have diligently labored with us to craft a 
genuine partnership of creativity, openness, and common purpose.
    Again, Mr. Chairman, I truly appreciate the opportunity to testify 
before the Committee, and I am happy to answer any questions that you 
have.

    Senator Thomas. Thank you. And all of your statement will 
be put in the record.
    Mr. Cosgrove. Thank you.
    Senator Thomas. Mr. Knight.

  STATEMENT OF J. PEYTON KNIGHT, EXECUTIVE DIRECTOR, AMERICAN 
POLICY CENTER, AND WASHINGTON REPRESENTATIVE FOR AMERICAN LAND 
               RIGHTS ASSOCIATION, WARRENTON, VA

    Mr. Knight. Mr. Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today.
    My name is Peyton Knight. I am executive director of the 
American Policy Center, in Warrenton, Virginia, and Washington, 
D.C., representative for the American Land Rights Association. 
Both organizations promote the protection of private-property 
rights, free markets, and limited government.
    I also have the distinct pleasure of being the only witness 
appearing today who is not asking you for any money. And that 
is important, because, at last check, the Federal debt is 
approaching $8 trillion. But extreme fiscal irresponsibility 
aside, National Heritage Areas embody a more sinister 
characteristic. Though billed by those who hope to cash in at 
Federal trough as nothing more than innocuous designations 
bestowed upon local communities for the purposes of national 
recognition and tourism seed money, Heritage Areas are actually 
Federal land-use mandates foisted upon local communities. Quite 
simply, Heritage Areas have boundaries, and those boundaries 
have consequences for the property owners unfortunate enough to 
reside within them.
    Incredibly, proponents argue that Heritage Areas do not 
influence local zoning or land-use planning. Yet, by 
definition, this is precisely what they do. In each of the 
three Heritage Area bills before us today, the management 
entity specifically directed to restore, preserve, and manage 
anything and everything that is naturally, culturally, 
historically, and recreationally significant to the Heritage 
Area. This sweeping mandate ensures that virtually every square 
inch of land within the boundaries is subject to the scrutiny 
of the Park Service and their managing partners.
    The late Representative Gerald Solomon of New York strongly 
warned his colleagues against Heritage Area schemes several 
years ago. In a letter to his colleagues, he wrote, ``I urge 
you to defend property rights and strongly oppose the American 
Heritage Area Participation Program. The environmentalists 
advocating this bill have Federal land-use control as their 
primary objective.'' And the rest of his letter is included in 
my written testimony.
    Little has changed in the years since Congressman Solomon 
warned his colleagues about the imprudence and danger of a 
National Heritage Areas Program. The advocates of this program 
still have Federal land-use control as their primary objective. 
Heritage Areas still waste tax dollars that would better be 
spent on a Park Service maintenance backlog that now numbers in 
the billions of dollars. And the Secretary of the Interior 
still has the ultimate say over the management and land-use 
plans of each Heritage Area, these present bills included. 
Clearly, National Heritage Areas are nothing less than Federal 
land-use policy.
    Representative Bob Smith, years ago, also penned a letter 
to Congressman Richard Pombo warning him about the inherent 
dangers of National Heritage Areas, calling them ``a 
significant threat to property rights.'' And, again, the rest 
of that letter is in my testimony.
    In reality, National Heritage Areas are nothing more than 
land targeted by the National Park Service for future natural 
parks, historic sites, landmarks, and land acquisition. This is 
evidenced today by S. 323, which intends to make the French 
Colonial Heritage Area in Missouri a permanent unit of the Park 
Service and a national historic site.
    The Rivers of Steel area in Pennsylvania has existed almost 
exclusively as a Park Service lobby outwardly campaigning for 
Federal land-acquisition authority and national park status. In 
fact, just yesterday, Arlen Specter, introduced legislation 
that would create that 38-acre national historic site within 
the Rivers of Steel Heritage Area.
    Federal Government owns almost one-third of America's total 
land mass. National Park Service is assigned to caring for much 
of this property. At present, the Park Service is running a 
multi-billion-dollar deferred-maintenance backlog. If it can't 
handle its current responsibility, how on earth does it make 
sense to give it more?
    A very wise man once observed, ``The Federal Government 
continues to acquire greater amounts of land throughout the 
nation. In almost every State, officials are saying it is time 
to address existing public-lands needs before we swell the size 
of the Federal Government. It's time for Congress to promote 
the rights of private-property owners and instill some common 
sense into Federal land acquisitions.''
    These words were spoken only last Friday by our good 
Chairman Thomas, upon the introduction of his No Net Loss of 
Private Lands Act. And, if I may say so, it's a brilliant bill, 
rooted in sound principle.
    Proponents of Heritage Areas also claim they are locally 
driven projects, but nothing could be further from the truth. 
Landowners within the boundaries of proposed Heritage Areas are 
left in the dark throughout the entire process. Why? Because 
each and every Heritage Area bill refuses to include simply 
written notification to property owners. Seemingly, the Park 
Service and their management partners are not too eager to 
share all the good news with the local citizenry. If these 
National Heritage Areas were truly driven by local enthusiasm, 
we wouldn't even be here today. Instead, local enthusiasm would 
have attracted and generated local funding to create local 
heritage areas. Such locally supported heritage areas are 
plentiful across the Nation. Instead, the National Heritage 
Areas depend on Federal tax dollars because they lack local 
interest, something that lack throughout their entire infinite 
lives.
    Proponents claim Heritage Areas are merely seed grants, and 
that, sooner or later, they will attain self-sufficiency and no 
longer need Federal funding, yet National Heritage Areas almost 
never meet their funding sunset triggers. Once created, they 
are permanent units of the National Park Service and always 
dependent on increased Federal funds. Indeed, National Heritage 
Areas are the 40-year-old child still living in mommy and 
daddy's basement. Some day, they swear, they'll grow up and 
move out on their own. Yet that day never comes.
    In fact, there's a bill before this very Congress, H.R. 
888, that would extend the Federal life of nine existing 
Heritage Areas until the year 2027, and double their funding. 
It certainly appears that Junior has no plans to leave the 
basement.
    In conclusion, National Heritage Areas are a worse idea now 
than they were 10 years ago. Experience shows they not only 
become a----
    Senator Thomas. Can you sum here now?
    Mr. Knight. Yeah.
    Senator Thomas. I've got to leave.
    Mr. Knight. Okay.
    The real beneficiaries of National Heritage Areas are 
conservation groups, preservation societies, land trusts, and 
the National Park Service, organizations that are in constant 
pursuit of Federal dollars, land acquisition, and restrictions 
of private-property rights.
    [The prepared statement of Mr. Knight follows:]

 Prepared Statement of J. Peyton Knight, Executive Director, American 
Policy Center, and Washington D.C. Representative for the American Land 
                     Rights Association, on S. 175

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to appear before you today. My name is Peyton Knight. I am 
executive director of the American Policy Center in Warrenton, 
Virginia. The Center is a nonprofit grassroots organization dedicated 
to advancing the principles of private property rights, free markets, 
and limited government. In addition, I am the Washington, D.C. 
representative for the American Land Rights Association (ALRA). ALRA 
promotes the protection of property rights and the wise use of our 
nation's resources. I have the distinct pleasure of being the only 
witness appearing today who is not asking you for any money.
    And that is important, because at last check, the federal debt is 
approaching eight trillion dollars. Extreme fiscal irresponsibility 
aside, National Heritage Areas (NHAs) embody a more sinister 
characteristic. Though billed by those who hope to cash-in at the 
federal trough as nothing more than innocuous designations bestowed 
upon local communities for the purposes of national recognition and 
tourism-seed money, Heritage Areas are actually federal land use 
mandates foisted upon local communities. Quite simply: Heritage Areas 
have boundaries, and those boundaries have consequences for property 
owners unfortunate enough to reside within them.
    Funding and technical assistance for NHAs is administered through 
the National Park Service (NPS), a federal agency with a long history 
of hostility toward private landowners. The recipient of these funds 
and NPS direction is a management entity, which typically consists of 
strictly ideological special interest groups and local government 
officials. This public/private ``partnership'' then imposes its narrow 
vision of land use planning on unsuspecting landowners within a 
Heritage Area's boundaries. The result is a top-down, federal approach 
to zoning that is not responsive to the local citizenry.
    Incredibly, proponents argue that National Heritage Areas do not 
influence local zoning or land use planning. Yet by definition this is 
precisely what they do. In each of the three Heritage Area bills before 
us today (S. 175, S. 322, and S. 429), the management entity is 
specifically directed to restore, preserve, and manage anything and 
everything that is naturally, culturally, historically, and 
recreationally significant to the Heritage Area. This sweeping mandate 
ensures that virtually every square inch of land within the boundaries 
is subject to the scrutiny of Park Service bureaucrats and their 
managing partners.
    The late Representative Gerald Solomon (R-NY) strongly warned his 
colleagues against the Heritage Area scheme. In a letter dated 
September 19, 1994, Solomon wrote:

          I urge you to defend property rights and strongly oppose the 
        American Heritage Area Participation Program . . . The 
        environmentalists advocating this bill have FEDERAL LAND USE 
        CONTROL as their primary objective.
          The bill wastes tax dollars that could be more appropriately 
        spent on maintaining our national parks . . . Property rights 
        defenders have legitimate concerns about the provision in the 
        bill requiring localities to obtain approval by the Secretary 
        of Interior for land use plans . . .
          WHY SPEND $35 MILLION ON NON-FEDERAL HERITAGE AREAS WHEN OUR 
        NATIONAL PARKS DESPERATELY NEED FUNDS FOR MAINTENANCE AND 
        REPAIR?
          Again, I ask you to defend property rights and oppose this 
        bill.
          (The emphasis is Rep. Solomon's--not mine.)

    Little has changed in the ten years since Congressman Solomon 
warned his colleagues about the imprudence and danger of National 
Heritage Areas. The advocates of this program still have federal land 
use control as their primary objective. Heritage Areas still waste tax 
dollars that would be better spent on a Park Service maintenance 
backlog that now numbers in the billions of dollars. And the Secretary 
of Interior still has the ultimate say over the management and land use 
plans of each Heritage Area, these present bills included. Clearly, 
National Heritage Areas are nothing less than federal land use policy.
    Also on September 19, 1994, Rep. Bob Smith (R-OR) penned a letter 
to fellow Congressman Richard Pombo, warning him about the inherent 
dangers of National Heritage Areas:

          Dear Richard,
          On Tuesday, the House will consider legislation that I 
        consider to be the most significant threat to private property 
        rights I have seen during my twelve years in Congress.
          This legislation . . . will threaten private property by 
        authorizing a broad new program of federal land use controls, 
        extending from coast to coast. There are nearly 100 Heritage 
        Areas currently under consideration and it's likely that your 
        constituents will be impacted by these incredible restrictions 
        on private property.
          This program is based on the existing Columbia Gorge Scenic 
        Area in Oregon and Washington. The management plan for the 
        Gorge regulates nearly every detail of private property use, 
        including the color landowners can paint their homes and the 
        species of trees they can plant in their own yard. Your 
        constituents, like mine, will be outraged at this gross abuse 
        of government over-regulation if this bill is enacted. Believe 
        me, you do not want to be part of a town hall meeting after 
        masses of your constituents learn the federal government has 
        the final say over what they can do on their own property.

    In reality, National Heritage Areas are nothing more than land 
targeted by NPS for future national parks, historic sites, landmarks, 
and land acquisition. This is evidenced today by S. 323, which intends 
to make the French Colonial Heritage Area in Missouri a permanent unit 
of the Park Service and a National Historic Site. The Rivers of Steel 
Heritage Area in Pennsylvania has existed almost exclusively as a NPS 
lobby--outwardly campaigning for federal land acquisition authority and 
national park status.
    The federal government owns almost one-third of America's total 
land mass. The National Park Service is assigned to caring for much of 
this property. At present, the Park Service is running a multi-billion-
dollar deferred maintenance backlog. It can't handle its current 
responsibility. How on Earth does it make sense to give it more? A wise 
man once observed:

          The federal government continues to acquire greater amounts 
        of land throughout the nation. In almost every state, officials 
        are saying it is time to address existing public lands' needs 
        before we swell the size of the federal government . . .
          It's time for Congress to protect the rights of private 
        property owners and instill some common sense into federal land 
        acquisitions.

    These words were spoken only last Friday by our good Chairman 
Thomas upon the introduction of his ``No-Net-Loss of Private Lands 
Act'' (S. 591). If I may say so, it is a brilliant bill rooted in sound 
principle.
    Proponents of NHAs also claim that they are ``locally driven'' 
projects. Nothing could be further from the truth. Landowners within 
the boundaries of proposed Heritage Areas are left in the dark 
throughout the entire process. Why? Because each and every Heritage 
Area bill refuses to include simple written notification to property 
owners. Seemingly the Park Service and their management ``partners'' 
are not too eager to share all the good news with the local citizenry.
    If these National Heritage Areas were truly driven by local 
enthusiasm we wouldn't even be here today. Instead, local enthusiasm 
would have attracted and generated local funding to create local 
Heritage Areas. Such locally supported Heritage Areas are plentiful 
across the nation. Instead, National Heritage Areas depend on federal 
tax dollars because they lack local interest--something they lack 
throughout their entire infinite lives. Proponents claim NHAs are 
merely seed grants, and that sooner or later, they will attain self-
sufficiency and no longer need federal funding. Yet National Heritage 
Areas almost never meet their funding sunset triggers. Once created, 
they are permanent units of the National Park Service and always 
dependent on increased federal funds. Indeed, National Heritage Areas 
are the 40-year-old ``child'' still living in mommy and daddy's 
basement. Someday, they swear, they'll grow up and move out on their 
own. Yet that day never comes.
    In fact, there is a bill before this very Congress (H.R. 888) that 
would extend the federal life of nine existing National Heritage Areas 
until the year 2027, and double their funding! It certainly appears 
that Junior has no plans to leave the basement. Life on the dole suits 
him fine.
    In conclusion, National Heritage Areas are a worse idea now than 
they were ten years ago. Experience shows that they not only become 
federal funding albatrosses, but also public/private conglomerates that 
quash property rights and local economies through restrictive federal 
zoning practices. The real beneficiaries of National Heritage Areas are 
conservation groups, preservation societies, land trusts, and the 
National Park Service--essentially, organizations that are in constant 
pursuit of federal dollars, land acquisition, and restrictions on 
property rights.
    True private property ownership lies in one's ability to do with 
his property as he wishes. Zoning and land use policies are local 
decisions to be made by locally elected officials who are directly 
accountable to the citizens they represent. National Heritage Areas 
corrupt this inherently local procedure by adding federal dollars, 
federal oversight, and federal mandates to the mix.
    Thank you again for inviting me to testify on this very important 
issue. I would be happy to answer any questions that of the 
subcommittee may have.

    Senator Thomas. Thank you very much.
    Again, I apologize for having to hurry things up, but, you 
hear, the bell's ringing.
    So, thank you all for being here, and we will move forward 
with these bills as soon as we can.
    [Whereupon, at 3:15 p.m., the hearing was adjourned.]

                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

                        Department of the Interior,
                                   Office of the Secretary,
                                    Washington, DC, March 15, 2005.
Hon. Pete V. Domenici,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Washington, DC.
    Dear Mr. Chairman: Enclosed are responses prepared by the Bureau of 
Land Management to questions submitted following the February 8, 2005, 
oversight hearing before the Subcommittee Public Lands and Forests on 
the Secure Rural Schools and Community Self-Determination Act.
    Thank you for the opportunity to provide this material to the 
Committee.
            Sincerely,
                                             Jane M. Lyder,
                                               Legislative Counsel.
[Enclosure.]
                      secure rural schools hearing
    Question 1. List all BLM-approved Title II projects that involve(d) 
the sale of merchantable material.


----------------------------------------------------------------------------------------------------------------
                                                                                           Implement in Fiscal
             Project Name                    BLM District           Year of Approval               Year
----------------------------------------------------------------------------------------------------------------
Southern Flame Density Management....  Salem..................  2002 & 2003............  2006 or 2007
Thomas Creek LSR Young Stand           Salem..................  2003 & 2004............  2005 or 2006
 Management.
Thomas Creek LSR Variable Density      Salem..................  2002 & 2003............  2005 or 2006
 Thinning.
Matchbox.............................  Lakeview...............  2003...................  2004
Boaz Forest Health & Small Diameter    2002...................  2003...................
 Utilization Medford.
Beck Road White Oak Release..........  Salem..................  2002*..................  2003 or 2004
Galesville LSR Enhance./Small Dia.     Medford................  2002 & 2003............  2004
 Removal.
Upper Umpqua Forest Habitat            Roseburg...............  2003...................  2004
 Improvement.
Smith River Stream Habitat             Roseburg...............  2003...................  2004
 Improvement.
Shivley Creek LSR Habitat Improvement  Roseburg...............  2003...................  2004 or 2005
Penny Stew (aka Scattered Apples)....  Medford................  2004...................  2005
Nestucca Jane Creek Restoration......  Salem..................  2004...................  2005 or 2006
----------------------------------------------------------------------------------------------------------------
* The project was not recommended by the RAC for Phase II (Implementation)

    Question 2. Which of the projects referred to above utilized 
separate contracts for the harvesting or collection of the merchantable 
material, and for the sale of such material?
    Answer. Matchbox, Galesville LSR Enhancement, and Smith River 
Stream Habitat Improvement (in bold) were selected as BLM Title II--
Pilot Projects where separate contracts were utilized to harvest and 
sell the merchantable material.

                     Questions From Senator Thomas

    Question 1. National Heritage Areas are not units of the National 
Park System, but the purpose of your bill, S. 323, is to authorize the 
Secretary of the Interior to conduct a study of the suitability and 
feasibility of designating the French Colonial Heritage Area as a unit. 
Is your intent to seek designation as a National Heritage Area or some 
other classification such as a park, historic site, or landmark?
    Answer. The intent of S. 323 is to consider the suitability and 
feasibility of designating the properties described within the text of 
the bill as a national historic site. The confusion regarding its 
designation as a National Heritage Area seems to be a result of a 
working title used locally for the collective properties under 
discussion. The use of the phrase ``French colonial heritage area'' in 
the text of the bill should not constitute a reference to a National 
Heritage Area.
    Question 2. What do you consider the National importance of the 
proposed French Colonial National Heritage Area?
    Answer. The colonial history of a vast central portion of our 
country traces its roots to the 18th century French settlements that 
developed throughout the mid-Mississippi River valley. The cultural 
identity forged in this region during the colonial era is a 
fascinating, but largely unrecognized facet of our national identity. 
This vibrant French culture left its mark in many ways still evident 
today in numerous historic places throughout the mid-west.
    The historic village of Ste. Genevieve preserves a remarkable 
number of buildings from this French colonial culture. These resources, 
including the vertical-log, poteaux-en-terre structures identified in 
S. 323, constitute an unparalleled, architectural history of this 
colonial era.
    Question 3. If a more structured set of criteria were in place for 
National Heritage Areas, would this have assisted you in pursuing 
designation of the French Colonial National Heritage Area?
    Answer. While the original intent of S. 323 seeks designation as a 
national historic site, further information and criteria regarding 
National Heritage Areas would be a welcome addition to the efforts to 
seek solutions to preserve and interpret these remarkable, national 
treasures.

                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

     Statement of Hon. Nancy L. Johnson, U.S. Representative From 
                              Connecticut

                 NATIONAL HERITAGE AREA AND PARKS BILLS

    Mr. Chairman and members of the Committee, thank you for inviting 
me to testify today on S. 429, a bill to establish the Upper Housatonic 
Valley National Heritage Area in the state of Connecticut and the 
commonwealth of Massachusetts. I have introduced identical legislation 
in the House and wish to focus on the substantial impact a heritage 
area designation will have on my constituents and the region.
    The Upper Housatonic Valley is a singular geographical and cultural 
region that has made significant national contributions through its 
literacy, artistic, musical, and architectural achievements, its iron, 
paper, and electrical equipment industries and its scenic 
beautification and environmental conservation efforts. The heritage 
area has broad support throughout the region, from historic and civic 
organizations, local businesses and governments, and our state 
government. It also has inspired the development of a local 
organization that has already begun hosting hiking events and historic 
visits.
    Congress established criteria in our 2000 legislation that 
clarifies that designation requires a cultural, natural and historical 
heritage of national significance, must have broad public support and a 
qualified entity to manage the Area. The Park Service agreed that the 
Upper Housatonic Valley meets the Department's ten interim criteria for 
designation of a national heritage area and cite us as the best example 
of how to go about becoming a National Heritage Area.
    The Upper Housatonic Valley National Heritage Area would extend 
from Lanesboro, Massachusetts 60 miles South to Kent, Connecticut. This 
region of New England was home to the nation's first industrial iron 
sites from the 1730's to the 1920's. The first blast furnace was built 
in 1762 by Ethan Allen and supplied the iron for the cannons that 
helped George Washington's army to make other weapons for soldiers of 
the Revolutionary army. While most of the furnaces, mine sites and 
charcoal pits have been lost to development and time, the few that 
remain are in need of refurbishment. The Beckley Furnace in Canaan, 
Connecticut was designated an official project by the Millennium 
Committee to Save America's Treasures and now has been well restored.
    The Valley's history as a cultural retreat from the Boston and New 
York areas provides both past and current riches for the country. Since 
the 1930's visitors from all over have come to hear the music at 
Tanglewood, Music Mountain and Norfolk, see the paintings at the Norman 
Rockwell Museum, watch serious theater at Stockbridge and musical 
treats at Sharon. Today's local authors draw on a long tradition going 
back to the 19th century, when Herman Melville, Nathaniel Hawthorne and 
Edith Wharton lived and wrote here. The Upper Housatonic Area, with its 
remoteness from, but ties to large cities, occupy a special niche in 
our national culture.
    The Housatonic Valley is also rich with environmental and 
recreational treasures. The Housatonic River, just below Falls Village, 
Connecticut, is one of the prized fly-fishing centers in the Northeast 
and is enjoyed by fisherman from not only Connecticut and Massachusetts 
but the entire eastern seaboard. Olympic rowers have trained in this 
river as children have learned to swim, boat and fish and value its 
ecosystem.
    Through this broad, flexible and locally led initiative, the states 
of Connecticut and Massachusetts will be able to make real progress in 
protecting the river and its heritage and in guiding regional economic 
development. Rather than depending on the federal bureaucracy, states 
will be able to facilitate locally led, and truly voluntary programs 
that will help protect the river for future generations and strengthen 
the economies of these small towns by developing regional tourist 
attraction.
    This legislation has broad bipartisan support, I would like to 
thank the Energy and Natural Resources Committee for bringing it 
forward and I encourage my colleagues to support this legislation.
                                 ______
                                 
                 Central Missouri State University,
                    Department of History and Anthropology,
                                    Warrensburg, MO, March 9, 2005.
Hon. Craig Thomas,
Chair, Subcommittee on National Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I am writing to endorse Senate Bill 323 
``French Colonial Heritage National Historic Site Study Act of 2005'' 
authorizing a National Park Service study concerning the feasibility of 
designating the Amoureux-Bequette-Ribault site in Ste. Genevieve, 
Missouri, as a National Historic Site. Obviously the number of valuable 
historic properties in the United States deserving of consideration for 
this elevated status far exceeds what current resources available to 
the NPS can support, but notwithstanding current fiscal constraints, I 
am confident that a judicious assessment of this particular site will 
sustain the case for making it an exception and adding it to the elite 
list of National Historic Sites.
    While in the popular imagination New Orleans' historic French 
quarter embodies America's French colonial roots, the tiny town of Ste. 
Genevieve, Missouri boasts structures older and more representative of 
that tradition than any of the Crescent City's extant buildings. 
Several years ago in his acclaimed documentary series on America, 
Alistair Cooke made that very point in an episode introducing France's 
historical contributions to American development. Ste. Genevieve, while 
thirty some years younger than New Orleans, had the good fortune to 
escape the ravages of fire and economic development that destroyed the 
Louisiana city's oldest buildings. A scattering of in tact French 
colonial structures dating to the late eighteenth century, make 
Missouri's quaint Mississippi River town a bona fide national treasure. 
The Amoureux and Bequette Ribault dwellings under consideration in this 
legislation are two of only five known poteaux-en-terre or post-in-
ground houses remaining in North America. The third of those rare 
architectural specimens also stands nearby in Ste. Genevieve, along 
with numerous other exemplary structures representative of French 
Creole building techniques in the Mississippi Valley.
    Given their location on their original site, overlooking ``Le Grand 
Champ'' (the big field where early inhabitants owned land for 
agricultural purposes), with its still unimpeded view of the 
Mississippi, the Amoureux and Bequette-Ribault dwellings afford 
visitors an opportunity to relate to the earliest days of settlement in 
the Mississippi Valley in a way that cannot be replicated anywhere else 
in the entire United States. Five decades ago pioneering architectural 
historian Charles Peterson, who inaugurated the Doric American Building 
Survey for the NPS, That called attention to the importance of these 
valuable historic structures, and the wisdom of his judgment remains no 
less true today. I urge the members of your committee to give favorable 
consideration to this piece of legislation.
            Sincerely,
                                          William E. Foley,
                                     Professor Emeritus of History.
                                 ______
                                 
                                 State of Missouri,
                           Department of Natural Resources,
                                Jefferson City, MO, March 10, 2005.
Hon. Craig Thomas,
Chair, Subcommittee on National Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: As Director of the Missouri Department of 
Natural Resources, I am writing to express my support for Senate Bill 
323, `French Colonial Heritage National Historic Site Study Act of 
2005'. Our department believes that the historic resources described in 
the bill merit further study by the National Park Service. Such a study 
would provide a national perspective to the unique cultural and 
architectural history of Ste. Genevieve.
    Missouri's state park system has operated a state historic site in 
Ste. Genevieve since 1970, and has provided the public with an 
outstanding opportunity to experience the French cultural history of a 
region settled in the mid 18th century. We have expanded our state 
historic site to include a number of significant buildings, broadening 
our interpretive and preservation goals for the site. We have 
discovered that the richness and significance of the resources in Ste. 
Genevieve demand an even larger viewpoint than we are able to provide. 
We are confident the National Park Service study will discover that the 
important resources in Ste. Genevieve deserve the nation's devotion to 
their preservation and interpretation.
    Please contact me at 573/751-4732 or P.O. Box 176, Jefferson City, 
Missouri 65102, if you require further information. Thank you for your 
consideration of this matter.
            Sincerely,
                                            Doyle Childers,
                                                          Director.
                                 ______
                                 
               Upper Housatonic Valley Heritage Area, Inc.,
                                     Salisbury, CT, April 22, 2005.
Hon. Craig Thomas,
Chair, Subcommittee on National Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.

Re: S. 429--Designation of Upper Housatonic Valley

    Dear Senator Thomas: As we continue to evolve as regional heritage 
area we are happy to respond to the four questions in your April 4 
letter. During the past week we met with fifty members of the Tri-
States Chamber of Commerce, receiving unanimous support, and with a 
recently retired industrial executive who is the new Chairman of our 
major regional charitable foundation. It is we who thank you for the 
opportunity to appear at the hearing and submit this additional 
information.
    1. Potential Impact on Private Property Owners:

    a. With a total population of 109,000 and numerous second home 
owners, our area has an estimated 50,000 private property owners.
    b. During the ten years we have been working on this project no one 
has expressed concerns about the potential loss of property rights nor, 
indeed, registered any sort of adverse concern. After the March 15 
hearing I did hear from a gentleman who had read the adverse testimony 
of Mr. J. Peyton Knight and asked how it applied to us. The gentleman, 
who did not indicate where he lives, expressed a strong antipathy for 
the National Park Service and governmental activity in general. After I 
described our basic structure he responded positively, noting that our 
effort will preserve the ``cultural and asthetic (sic) texture of your 
community'' and provide a benefit to those ``lucky enough to live 
there''. His sign-off was ``Good luck and keep me posted''.
    c. Our powers as a National Heritage Area would provide very little 
opportunity to affect private property rights, other than, by 
increasing awareness of our heritage, increasing their value. We 
ourselves will not own property and have no powers to acquire property 
rights by force. We will only be working with willing organizations and 
individuals, who to date include everyone in the area that we have 
heard from. We plan to continue a very transparent mode of operation, 
as in recent years we have had more than a hundred public meetings and 
presentations. Our grants program will similarly be unbiased and 
transparent.
    d. No property owners have asked to be excluded from our proposed 
National Heritage Area. One property owner just outside the area has 
asked to be included at some point and we are working with him on 
several events, including hosting one of our annual heritage walks.

    2. The National Park Service study found four major heritage themes 
of national importance--our culture as home to writers, artists and 
musicians, our reclaimed natural beauty, our heritage as a cradle of 
industry and our contribution to the development of the nation's 
democracy--as well as several additional themes to be developed. We 
have already issued a brochure on the 1734-1923 iron industry that 
supplied cannons and arms for the Continental and American armed forces 
as well as peacetime artifacts and equipment for the country's growth, 
including high quality railroad wheels that enabled the Union Pacific 
to cross the Rocky Mountains. We are researching and developing 
materials on the region's distinct African-American heritage, a 
detailed modem look at an aspect of our national heritage.
    3. We support the Committee's desire for a generic bill setting 
forth procedures and criteria for being designated as a National 
Heritage Area and note that those set forth in S. 243 essentially 
embody, in many cases word-for-word, those included in our 2000 
legislation directing a study of the area. The National Heritage Area 
concept is a winner on all sides--more bang-for-the-buck for the 
Federal government and the enrichment of the lives of the area's 
citizens. But, as we have learned, its success rests on having a 
heritage of national significance, broad public support and a 
management entity able to do its share. These should properly be the 
focus of an unbiased study before any designation is considered. We 
consider ourselves a test case for the workability of the proposed 
procedures and criteria.
    4. Our mission is to enrich the lives of our citizens and visitors, 
coordinate and assist the many local heritage activities and the local 
economy and see that future generations will experience the very 
special heritage of the area. We hope than this will provide an 
incentive for more jobs and for youths to remain in the area to take 
those jobs.
    We have already found a role in coordinating local heritage 
activities, finding that the area's whole is substantially greater than 
the individual parts. We are an area of many small communities, so this 
is especially important.
    We plan to continue to evolve in our operations so that we will be 
ready, at the end of the ten year sunset period to continue on our own. 
Federal designation and support is a necessary key to getting into the 
mainstream, our efforts will lead to a long term role once we are 
there.
            Sincerely,
                                           Ronald D. Jones,
                                                          Chairman.
                                 ______
                                 
          The Foundation for Restoration of Ste. Genevieve,
                                 Ste. Genevieve, MO, March 9, 2005.
Hon. Craig Thomas,
Chair, Subcommittee on National Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: I am writing this letter in support of Senate 
Bill 323. The Foundation for Restoration of Ste. Genevieve is a 
community based historic preservation organization. Part of our mission 
is to `perpetuate and cherish the memory and spirit of the men and 
women who achieved the early settlements of the Mississippi River and 
established Ste. Genevieve' Our members have personal interests in the 
history of the area and a passion for the preservation of this history.
    We would like to ask you to support the bill that will authorize 
the study that will lead to the inclusion of Ste. Genevieve in the 
National Park System on the French Colonial Heritage National Historic 
Site Selection list for 2005. Thank you for your consideration in this 
matter.
            Cordially,
                                           Mickey Koetting,
                                                         President.
                                 ______
                                 
               Southeast Missouri State University,
                               Center for Regional History,
                                 Cape Girardeau, MO, March 9, 2005.
Mr. Jim Baker,
Historic Site Administrator, Felix Valle State Historic Site, Ste. 
        Genevieve, MO
    Dear Mr. Baker: I write in support of the development and 
designation of a French Colonial Heritage Area in the Ste. Genevieve 
region of Missouri. Senator Talent's bill, S. 323, is designed to 
establish the ``French Colonial Heritage National Historic Site Study 
Act of 2005'' as a unit of the National Park System.
    This project will do much to enhance the understanding and 
interpretation of American history. The identified area has wide 
regional recognition, but is deserving of greater national attention. 
This act will establish the basis for a national appeal. It can, and 
should, develop into a major tourism attraction in the Mississippi 
Valley, promoting the economic growth of Ste. Genevieve, southeast 
Missouri, and all of Missouri. Such an attraction would further enhance 
many of the hidden but rich historic resources of the region, providing 
more opportunities for all of us to do a better job of teaching history 
to our young people.
    The Ste. Genevieve area is a historic ``gold mine.'' There are so 
many historic dimensions to the community and region. In this small 
riverfront community one can study prehistoric Native Americans; the 
early history of the Mississippi River and Valley; the great levee and 
river control system of the Mississippi; the early French explorers; 
John J. Audubon; the Bois Brule Levee District; the world of the 
colonial French; American and French architectural history; lead 
mining; salt mining; lime mining; the French landscape patterns; early 
American fur trapping; the American frontier; and early American 
economic development. These topics, as well as others, can be studied 
and interpreted within the immediate vicinity of this small community. 
What a rich and diverse history exists here.
    But, it is the heritage of the French colonial period that is the 
most vital historic dimension of this area. This specific designation 
will call attention to the unique vertical log French homes in Ste. 
Genevieve, the beautiful historic downtown of Ste. Genevieve, the 
French long-lots along the Mississippi, and other historic French 
structures. There is no other community like this in the United States, 
The maintenance of these vital properties is difficult for a small 
community to maintain. Incorporation into the National Park Service 
will provide assurance of the historic preservation of one of the most 
historic communities in the Mississippi Valley. Incorporation into the 
National Park Service will provide assurance of the historic 
preservation of THE most important French Colonial Heritage Areas of 
North America. Without this I fear eventual compromise and loss.
    Thank you for your consideration of this important project.
            Dr. Frank Nickell,
                                                  Director,
                                       Center for Regional History.
                                 ______
                                 
                                    City of Ste. Genevieve,
                                Ste. Genevieve, MO, March 10, 2005.
Hon. Craig Thomas,
Chair, Subcommittee on National Parks, Committee on Energy and Natural 
        Resources, U.S. Senate, Washington, DC.
    Dear Senator Thomas: As Mayor of the City of Ste. Genevieve, I am 
writing to express my encouragement for Senate Bill 323, the ``French 
Colonial Heritage National Historic Site Study Act of 2005''. On behalf 
of the City of Ste. Genevieve, I believe that the historic resources 
described in the bill merit further study by the National Park Service 
and such a study would provide a national perspective to the unique 
cultural and architectural history of Ste. Genevieve.
    The City of Ste. Genevieve is very dedicated to Historic 
Preservation in the area with the great historical significance our 
City enjoys, I am asking for your support of this bill. Authorization 
of this bill will lead to the addition of Ste. Genevieve in the 
National Park System on the French Colonial Heritage National Historic 
Site Selection list for 2005. This addition would allow the 
preservation of these remarkable significant homes.
            Sincerely,
                                         Richard Greminger,
                                                             Mayor.


</pre></body></html>
